<html>
<title> - INFORMATION SHARING AFTER SEPTEMBER 11: PERSPECTIVES ON THE FUTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                       INFORMATION SHARING AFTER
                SEPTEMBER 11: PERSPECTIVES ON THE FUTURE

=======================================================================

                                HEARING


                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2004

                               __________

                           Serial No. 108-52

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-603                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security.......................................................     4
The Honorable Sherwood Boehlert, a Representative in Congress 
  From the State of New York.....................................    19
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    28
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     6
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    39
The Honorable James R. Langevin, a Representative in Congress 
  From the State Rhode Island....................................    42
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    35
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................    44
The Honorable Curt Weldon, a Representative in Congress From the 
  State of Pennsylvania..........................................     6

                               WITNESSES

The Honorable James Gilmore, Chair, Advisory Panel to Assess 
  Domestic Response Capabilities for Terrorism, Involving Weapons 
  of Mass Destruction, ``Gilmore Comission'' and President, USA 
  Secure.........................................................     8
The Honorable R. James Woolsey, Former Director, Central 
  Intelligence Agency:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Ms. Zoe Baird, President, The Markle Foundation
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                APPENDIX

Questions from the Honorable Sheila Jackson-Lee:
  Responses from the Honorable Jim Gilmore.......................    52
  Responses from the Honorable R. James Woolsey..................    52
  Responses from Ms. Zoe Baird...................................    51


                       INFORMATION SHARING AFTER
                SEPTEMBER 11: PERSPECTIVES ON THE FUTURE

                              ----------                              


                        Thursday, June 24, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:39 a.m., in Room 
2322, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Boehlert, Smith, 
Weldon, King, Shadegg, Thornberry, Gibbons, Turner, Dicks, 
Cardin, DeFazio, Lowey, Norton, Jackson-Lee, Christensen, 
Etheridge, Lucas, Langevin, and Meek.
    Chairman Cox. [Presiding.] The quorum being present, the 
Select Committee on Homeland Security will come to order. The 
committee is meeting today to hear testimony about the critical 
need to continue improvements in the area of terrorism-related 
information sharing.
    We have a truly exceptional panel of three distinguished 
witnesses, today.
    Governor Jim Gilmore served from 1999 until last year as 
chairman of the Congressional Advisory Panel to Assess Domestic 
Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction. Governor Gilmore continues his focus on these 
issues as president of USA Secure, a consortium of technology 
and infrastructure companies engaged in homeland security-
related businesses. He was, of course, governor of Virginia 
from 1998 until 2002.
    The Honorable Jim Woolsey is a former director of Central 
Intelligence. He has many years of perspective on intelligence 
community reform efforts and the complications that entails. He 
also has many years of experience as a senior arms control 
negotiator at the Conventional Armed Forces in Europe Talks, 
the U.S.-Soviet Strategic Arms Reduction Talks, and the Nuclear 
and Space Arms Talks.
    Zoe Baird is president of the Markle Foundation, and has 
for the past several years chaired its Task Force on National 
Security in the Information Age. The membership of this task 
force was marked, in particular, by its political diversity and 
technological sophistication. She is also a member of the 
Technology and Privacy Advisory Committee that advises the 
Defense Department on using technology in combating terrorism. 
Ms. Baird was previously senior vice president and general 
counsel at Aetna and held senior positions at General Electric.
    Full disclosure also compels me to note that all of our 
witnesses are lawyers. Far more significantly, each of our 
witnesses knows the world of intelligence and information 
sharing as it really is, understands its complexities and has 
carefully considered where we must go from here.
    On behalf of the Congress and this committee, I want to 
thank each of you for sharing with us your insights today. You 
are, in a sense, preaching to the converted, of course. The 
members of this committee have from the start put preventing 
terrorism at the top of our listed priorities. That is making 
information sharing one of our preeminent concerns.
    The question remains: what form reform should take, and how 
we should accomplish it. That is, of course, precisely the 
question that will animate the 9/11 commission as it completes 
its work. And if the answer is clear and simple, it has just as 
clearly alluded all of us to date.
    The problem is as complex as it is vital and urgent. And 
let me stress the urgency.
    On September 11th, Al-Qa`ida terrorists showed us, to our 
horror, that they were capable of exploiting a networked world 
against a U.S. government that was not networked. In less than 
90 minutes, they brought down the Twin Towers of New York's 
World Trade Center and breached the walls of the Pentagon, 
itself, turning it into an inferno.
    The toll, as we all know too well, was 3,000 innocent 
lives. And the terrorists succeeded, as we know, by exploiting 
the knowledge gaps that our stovepiped federal agencies had 
permitted to persist.
    And almost three years later, all must acknowledge that 
despite serious and sustained efforts by the responsible 
government agencies, we still do not have the level of timely, 
routine and unfettered information-sharing we know that we need 
to prevent terrorism and to respond to it as effectively as we 
must.
    The effort is not intellectual indulgence. It is not some 
administrative zero-sum game among executive branch agencies. 
Information-sharing in the post-9/11 world is job one. It is 
the irreducible minimum that we must do to ensure that our 
government can meet our most fundamental national expectation.
    But using the authorities we, the people, conferred upon 
it, our government will safeguard us, our territory, and--this 
is critical--our constitutionally based way of life. We have 
come to call that mission homeland security, and we can 
conceive of nothing more pressing. There is no higher national 
priority.
    The imperative of and challenges associated with 
information-sharing in the post-9/11 world draw people like our 
panelists today to deploy their expertise from much more 
lucrative pursuits in sustained and public consideration of how 
we can move critical information more efficiently to all of 
those, including state, local and competitive corporate 
entities who need it to met their own responsibilities within 
the overall homeland security mission.
    If we, with their assistance, succeed, it will have been by 
fundamentally shaking entrenched bureaucratic cultures, by 
challenging residual resistance and complacency.
    The task is well begun. Take a look at where we are. The 9/
11 Commission's report will, like the joint inquiry's report 
before it, take hundreds of pages to describe a very 
straightforward problem that the terrorists exploited to 
devastating effect. We did not know what we needed to know, and 
what we did know did not get to those who needed it in time to 
be useful.
    That is it. That is the problem that brings us here today.
    DCI Tenet acknowledged the urgency of this problem and its 
solution nearly two years ago when testifying before the joint 
inquiry into the 9/11 attacks. Here is what he said.
    ``We must move information in ways and to places it has 
never before had to move. We need to improve our multiple 
communications links, both within the intelligence community 
and now in the homeland security community. Now, more than ever 
before, we need to make sure our customers get from us exactly 
what they need, which generally means exactly what they want, 
fast and free of unnecessary restrictions.''
    Let us take a look at what has been done about it since the 
attacks, the big innovations.
    First, there is the Department of Homeland Security itself.
    Second, there is TTIC, the Terrorist Threat Integration 
Center, a presidentially created interagency joint venture that 
is responsible for comprehensive analysis of all terrorist 
threat-related information.
    Third, there is the Terrorist Screening Center, another 
interagency joint venture.
    There is a fourth innovation, too. If DHS, TTIC and the 
Terrorist Screening Center are the new machinery in 
information-sharing, then the grease they will need to run 
smoothly is reflected in the March 4th, 2003, memorandum of 
understanding on information sharing. The attorney general, the 
director of central intelligence and the secretary of homeland 
security all signed this, binding their federal law enforcement 
agencies, the intelligence community and DHS itself.
    This memorandum of understanding imposes sweeping new 
minimum standards for routine information-sharing to implement 
provisions of the Homeland Security Act and the Patriot Act.
    The MOU requires that the secretary of homeland security be 
provided access to all information necessary for him to carry 
out the mission of the department. This reflects the language 
of the statute itself, which imposes upon the rest of the 
federal government requirements to provide information to DHS 
whether or not the department asks for it.
    It provides that the federal government should speak with 
one voice by requiring that, except in exigent circumstances, 
the secretary of homeland security approve federal 
dissemination of non-law enforcement analysis to state-, local-
and private-sector officials.
    And it also requires that federal agencies generally 
disclose information they originate to other federal agencies, 
free of any originator controls or information use 
restrictions.
    That may all sound unremarkable. It is, after all, just 
applied common sense. But these are fundamental challenges to 
the status quo ante of 9/11. And our job in Congress, as in the 
executive branch, is to make sure that the requirements in that 
MOU are implemented fully and quickly.
    Here on this committee, we have from the very outset 
stressed the priority of prevention and its dependence on 
unfettered and timely sharing of accurate information on 
terrorist threats. That will continue, and I am happy to report 
that our efforts are as bipartisan as is our panel today.
    And what we do on this committee will never give those who 
look back on it in the future cause to suggest that we flagged 
in our oversight responsibilities or temporized in remedying 
the shortcomings we found. Because we all now agree that it is 
true, that what we do not know empowers our enemies, and what 
we do know will help defeat them.
    It is true that, in this new war, the ongoing battle for 
our future, knowledge is the very essence of power. And we know 
by hard experience that if information does not move, people 
may die. It is that simple. That is the lesson of 9/11. We 
simply must get key information to those who need it most, and 
we cannot be satisfied with inefficiency or delay. We must make 
happen what must be made to happen.
    We look forward to your perspectives and are grateful for 
your insights.
    And moving on with this same sense of urgency, I recognize 
the distinguished ranking member from Texas, Mr. Turner, for 
his opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    I have a chart I would like to ask the chair to allow me to 
put up.
    Chairman Cox. I would ask unanimous consent that the chart 
be admitted.
    Without objection, so ordered.
    Mr. Turner. Thank you, Mr. Chairman. And thank you for 
scheduling what I believe, and I know we all agree, is one of 
the most critical issues that we could address on this 
committee.
    And I want to thank the witnesses for being with us. I 
appreciate the work that The Markle Foundation has done to try 
to provide some guidance on how to solve some of these 
intelligence-sharing problems. And I appreciate Mr. Woolsey and 
Governor Gilmore for your continued involvement in the public 
sector to try to help and advise and to lead us in the right 
direction.
    I think we all understand that coordination at the highest 
levels of our government on homeland security information-
sharing is still, three years after 9/11, sorely lacking.
    I think we saw a little window into that problem just a few 
weeks ago when Attorney General Ashcroft and Secretary Ridge 
issued what amounted to contradictory public statements on the 
same day about the current threat from Al-Qa`ida. They got 
together two days later and tried to remedy that with a joint 
press conference.
    But I think, as Chairman Cox said on that occasion, the 
whole incident suggests that the broad and close interagency 
consultation that we expect and which the law requires did not 
take place in that instance.
    So we were left with the public confused and still lacking 
in the basics, in terms of sharing information with the public 
regarding the nature of the Al-Qa`ida threat.
    As the Markle report has indicated, as the Gilmore report 
has indicated, and as the soon-to-be-released 9/11 Commission 
report will point out, we are still falling short in three 
basic areas.
    One, in the collection of information and the sharing of 
information with state and local officials.
    Secondly, in synthesizing the counterterrorism analysis of 
the various and newly created intelligence fusion centers at 
DHS, DOJ and DOD.
    And thirdly, we are falling short in that the federal 
government sharing of information with our first responders in 
timely manner, which I think is an essential part of being able 
to respond in this country to preventing and responding in the 
event of a terrorist attack.
    So I thought the chart there would be useful, because what 
it shows you are the multiple lines of communication that now 
exist between the federal government and our first responders. 
This chart demonstrates how we are building separate, competing 
systems run by rival agencies to convey threat information to 
first responders.
    For example, at DHS, we have the Homeland Security 
Information Network. At DOJ, we have the Regional Intelligence 
Sharing System. At DOD, it appears that the Joint Regional 
Information Exchange System, better known as JRIES, is another 
channel of communication that will be in use.
    And it is also my understanding that the Terrorist Threat 
Integration Center, TTIC, is building out an on-line 
information system to reach first responders, as well.
    So despite our good intentions, I would submit that we are 
building multiple, parallel information-sharing systems that 
cause more confusion for first responders and fail to ensure 
that all information gets to everybody that needs it.
    In times of emergency, who will the first responders call 
on? Who will they rely on? Which information network will they 
turn to? These are all legitimate and important questions that 
the federal government needs to get a better handle on.
    The Markle Foundation has very aptly pointed out, in its 
own comprehensive report, that there are major weaknesses in 
how the executive branch defines the respective roles, 
responsibilities and authorities of the federal agencies 
involved in assessing and disseminating homeland security 
information.
    This lack of coherence is leading to turf battles between 
these agencies, gaps in the interagency information-sharing and 
analysis, and limited attempts to protect our civil liberties. 
We can and we need to do much better on managing interagency 
information-sharing.
    I think the Markle Foundation concept is one that we have 
to come to grips with. That is, we have to collect information 
in real time into a common database available to all of the 
relevant agencies and personnel at the federal, state and local 
level. And that information must be accessible to the relevant 
state, local and federal officials and personnel who need it. 
And it should be available based upon the classification to 
which they should have access.
    That concept has not been pursued by our government. And 
nobody, to my knowledge, other than what I have heard from The 
Markle Foundation, has seriously made an attempt to devise such 
an information-sharing system.
    It was in the 2003 State of the Union address that the 
president announced the creation of the Terrorist Threat 
Integration Center, which was to, in his words, merge and 
analyze all threat information in a single location. The fact 
of the matter is that the CIA, the FBI, DOJ, DOD, DIA and DHS 
have all retained their own separate terrorist intelligence 
fusion centers.
    Now, you can argue that competitive analysis of 
intelligence is a healthy practice. But creating and 
maintaining multiple intelligence centers is, in my judgment, a 
recipe for continued confusion and failure to coordinate the 
work of these various centers and have very real consequences 
to our security.
    Mr. Chairman, it has been 30 months since 9/11, and it 
appears that we are still a very long way from solving what has 
been identified as the main reason that the federal government 
failed to detect and prevent that historic and unfortunate 
attack on our nation.
    Again, I thank our witnesses for being with us today. I 
thank you for your continued work and effort to solve the 
problems that we are addressing today. And I look forward to 
hearing from each of you.
    Thank you very much.
    Ms. Dunn. [Presiding.] Thank you very much, Mr. Turner.
    Do other members have opening statements?
    Go ahead, Mr. Weldon.
    Mr. Weldon. Thank you, Madam Chairwoman.
    I welcome our witnesses. I have worked with two of them in 
a very close way. I have not had the pleasure of working with 
Ms. Baird. Jim Woolsey is one of the outstanding public 
servants in this city, and it is a pleasure to welcome him 
here, expert on intelligence and other issues.
    And Jim Gilmore I am happy to see. I wrote the language 
that created the Gilmore commission, and I have worked closely 
with the Gilmore commission since its inception. If we had 
listened to the commission, who issued three reports before 9/
11, and would have paid attention to the recommendations, we 
would have had a definite impact on the terribly tragic 
incident of 9/11.
    But I want to talk about this issue today, briefly. This 
hearing is about post-9/11, but I want to go through with my 
colleagues something the 9/11 commission would not touch. And I 
assume they would not touch it because it would embarrass the 
Clinton administration and it would embarrass the Bush 
administration.
    You see, my friends and colleagues, back in 1999, when I 
chaired the R&D subcommittee for the Armed Services Committee, 
we knew that data integration and data fusion was a challenge 
that had to be met.
    In fact, working with it then, at that time, Deputy 
Secretary of Defense John Hamre, he challenged me to take the 
model developed by the LIWA facility of Fort Belvoir, which is 
the Army's information dominant center, which was stood up by 
each of the services, in this case the Army, to look at the 
capability of protecting the security of all of our defense 
classified information systems.
    When the Army went beyond that, in developing with Fort 
Belvoir, they brought in external sources of data unofficially. 
I tested that system in the summer of 1999, and was so 
impressed with it that I convinced John Hamre to go down there, 
and he, like I was, was also very impressed, to the point where 
he said, ``Congressman, I agree with you. We need to create a 
national operations and analysis hub.''
    And to my colleagues, here is the brief. This brief was 
developed in 1999, two years before 9/11. The goal was to 
integrate 33 classified systems that the federal government was 
operating, because that is how many there are--and here are all 
the agencies--33 classified systems, all the 3-letter agencies, 
all the agencies of the federal government, for one purpose: to 
have the ability to do data fusion, data analysis, for the 
issue of emerging transnational threats and dangers from 
terrorist acts.
    John Hamre, he said to me, ``Congressman, I will pay for 
it. DOD will fund it. I do not care where it is located. But 
you have to give in so CIA and the FBI that they should, in 
fact, become a part of this.''
    Let the record show that on November 4, 1999, in my office, 
the deputy director of the CIA, the deputy director of the FBI, 
and the deputy director of the Department of Defense, John 
Hamre, met with me for over one hour and received this brief, 
which I ask unanimous consent to place in the record. This 
brief calls for the creation of a national threat and data 
fusion center.
    When we finished the brief, the CIA and the FBI said to me, 
``Congressman, we do not need that capability. We do not need 
that capability.'' We did not accept that. We put language in 
the Defense Authorization Bill, which I will also put in the 
record, calling for the creation of a national data fusion 
center in the 2000 defense bill.
    Again, no one took it seriously. This was one year before 
9/11.
    Now, why the 9/11 Commission would not touch this, I am 
convinced, is because it would severely embarrass the previous 
administration but also this administration because we did not 
act on this recommendation until the president, in January of 
2003, called for the creation of the TTIC.
    And so I am pleased to be here today. And I am pleased to 
discuss what we have done since then. But I want our colleagues 
to know that the Congress is out front on this issue. If we 
have taken the steps in 1999 and 2000, perhaps we would have 
had a better understanding of the way that intelligence data 
could be fused to understand emerging threats.
    Thank you.
    Ms. Dunn. I thank the gentleman.
    Does anybody else have an opening statement?
    All right, let us move then to our panel's presentations. 
Why don't we start with Governor Gilmore. We are happy to have 
all of you here today. Looking forward to your testimony.

STATEMENT OF THE HONORABLE JAMES GILMORE, CHAIR, ADVISORY PANEL 
    TO ASSESS DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM 
 INVOLVING WEAPONS OF MASS DESTRUCTION ``GILMORE COMMISSION'' 
                   AND PRESIDENT, USA SECURE

    Mr. Gilmore. Thank you, Madam Chairman. I am pleased to 
have an opportunity to be here today, particularly with these 
distinguished members of the panel.
    I am personally acquainted with most all of you and work 
very closely, of course, with the congresswoman and Mr. 
Boehlert, Mr. Gibbons and others who are here and Mr. Weldon, 
most particularly, on the Democratic side. I am well-acquainted 
with most of the members. Appreciate your thorough leadership 
in these areas, Mr. Turner's wonderful opening statement.
    We actually had Congresswoman Christensen participate with 
us on a bioterrorism program that we put together just 
recently.
    So we appreciate the leadership of everyone.
    I want to highlight Congressman Weldon. He actually wrote 
the language that created the advisory panel to this Congress 
on terrorism and domestic response capabilities involving 
terrorism, weapons of mass destruction, and wrote it in 1998 
and established the commission in the beginning of 1999. He has 
followed the commission like no other in Congress, has been 
very careful with his leadership.
    And, Congressman Weldon, we appreciate your leadership in 
all these matters. And hopefully, we have lived up to your 
hopes and aspirations for this legislation.
    It has been my pleasure to chair the commission since its 
inception, when I was asked by the Clinton administration 
Department of Defense to actually do that while I was still 
governor of Virginia. I was delighted to be invited to do it.
    I had been an intelligence agent in the Army intelligence 
back when I was in the service. In the 1970s, I had a high 
interest in the terrorism issues, so I was pleased to have the 
chance to work with the RAND Corporation as a staff 
organization and distinguished people from the responders 
community: police, fire, rescue, emergency services, retired 
general officers, intelligence people, epidemiologists, health-
care people. It was truly a professional organization. It was 
my honor to chair that distinguished commission in their work.
    The work that we did was over a five-year period. This 
Congress actually passed a statute to create this commission 
for three years. It was to have its final report December 15, 
2001. We issued our very first report at the end of 1999, at 
which time we assessed the threat, and were concerned and 
warned, at that time, that the chance of an attack in this 
country on the homeland was a very high probability. And in 
fact some of our language used the word ``inevitable.''
    In the second year, in 2000, we--and again, our commission 
never really looked back. It never attempted to blame anybody 
for anything. Our goal was to look ahead constantly and to try 
to provide this Congress with the best possible insight.
    In the second year, we focused our attention on the 
national strategy, the need for it to be federal, state and 
local, for the White House to have the proper facilities in 
place to create a national strategy and expressed great concern 
about the inability of the intelligence committee to share 
information either amongst itself or, frankly, up and down the 
chain between federal, state and local people--a cultural 
anathema which we believe exists to this day.
    The third report was actually completed and at the printer, 
in which we discussed five major areas: How do you use state 
and local people? What do you do about the health-care 
community, particularly with the threat of bioterror? What do 
you do about border control? How do you deal with the military 
in a homeland situation? And then, finally, the issue of 
cyberterrorism.
    And then the attack occurred while it was at the printer. 
The report was issued on time in December the 15th in 2001. And 
then this Congress, under the leadership of Congressman Weldon, 
extended the commission for two additional years.
    In the fourth year, we focused our attention virtually 
exclusively on the intelligence--well, that is too broad. But 
we especially focused on the intelligence concerns, recommended 
that there be a fusion center, which later became the TTIC.
    There was a debate in our commission for almost a year over 
the issue of whether or not we have a separate MI-5 
organization to do intelligence work or rely on the FBI. As 
chairman, I have led the group that believed that the FBI 
should be required and forced to do it. Jerry Bremer, who had 
served four years on the commission, led the group that 
believed that the FBI could not do it and that MI-5 type of 
model was the better approach. And the commission adopted that, 
in fact, recommendation to the Congress.
    Then finally, we just issued our last report this past 
year, in which we tried to look out once again, to express 
grave concern after five years; to, at the same time, express 
the desire that we should rethink where we are trying to go and 
to try to somehow eliminate the fear and anxieties, and focus 
our attention on the civil freedoms aspects.
    The testimony that I believe I would give you today is a 
reminder that if we are going to address this issue in two 
pieces, which is prevent and respond--which I believe the 
Congress has expressed in numerous meetings and testimony that 
they are concerned about--is the recognition that vulnerability 
is really not threat.
    It needs to be remembered that everything, particularly in 
a free society, is vulnerable. You have vulnerabilities in a 
less free society, quite frankly. But threat is the intentions 
and capability of the enemy. They may want to attack vulnerable 
things and systems and people. But the question is, what do 
they want to do, what are their intentions and what are they 
capable of doing?
    And that brings intelligence to the fore. There is no way 
to address that kind of threat in any intelligent way, other 
than to focus our attention on the intelligence piece and to 
make sure that intelligence is available and coordinated and 
accessible.
    And finally, we have to deal with the issue of how we share 
intelligence and information and to put the proper structures 
into place. This is a big challenge, particularly with this 
committee has to deal with issues of a disparate and disperse 
nature of the intelligence organizations. On the response side, 
we need to focus our attention once again on harmonizing 
federal, state and local people into a unified program.
    So with all this being said, it has been our pleasure to 
represent the Congress and to advise you for five years on 
these areas. This committee, we believe, is focused and 
central. We are proud of the work that you are doing. We 
recommended a central type of committee that would be in a 
position to address these issues; that is what this committee 
is. We appreciate your work and look forward to your leadership 
in the years ahead.
    Ms. Dunn. Thank you very much, Governor.
    We will next move to former director of the CIA, the 
honorable James Woolsey.

            STATEMENT OF THE HONORABLE JAMES WOOLSEY

    Mr. Woolsey. Thank you, Madam Chairman.
    If it is all right, I will ask my statement to be inserted 
into the record, and I will use it as notes to speak from.
    It is an honor to be asked to testify before you today. I 
am going to talk principally about the likely substance and 
sources of information that might be shared, since I believe 
that the organizational structure and the procedure should 
probably be derived therefrom.
    First of all, in my judgment, this, what I call the long 
war of the 21st century, which we are engaged in now--and by 
the way, I believe it will last for decades, like the Cold 
War--will not be dominated, the information about it will not 
be dominated by foreign intelligence, as was the Cold War.
    One learns very little about terrorists by looking at them 
with satellites. They have learned to avoid the links that we 
intercept, partially because of press leaks. And penetrating 
terrorist cells, particularly decentralized terrorist cells, is 
extraordinarily difficult--much, much harder than penetrating 
the KGB or the Warsaw Pact general staff.
    We will get continuing information from intelligence 
liaison; that is, information provided by friendly intelligence 
services in the Middle East and elsewhere. But we are unlikely 
to be able to have the advantage that we had in Afghanistan of 
taking over Al-Qa`ida files, disk drives, senior Al-Qa`ida 
prisoners and the rest.
    So if intelligence liaison is a source of much of our 
foreign intelligence, we are going to find that there are 
people who are in this business of decision-making who, for 
example, do not agree with the MOU of March, that there should 
be no restrictions on originator controls, or so-call ORCON 
restrictions on intelligence.
    It is not the CIA principally you need to worry about here, 
it is the intelligence services of such countries as friends in 
the Middle East. Because any country, when they provide 
information to the United States and we to they, say, ``By the 
way, this will not go beyond the following four people, and we 
are willing to provide it to you on that basis, but not 
otherwise,'' so very broadly disseminated information that 
violates those understandings with foreign intelligence 
services, will mean that those foreign intelligence services 
will not for long be providing information.
    Second, it is important to realize that the 9/11 plotters 
worked principally in the United States and Germany, two 
countries where the United States foreign intelligence services 
essentially do not spy. They knew what they were doing. They 
knew about civil liberties in Germany and the United States.
    Although the CIA made a terrible mistake in not listing Al-
Midhar and Alhamzi, the two pilots of one of the flights, whom 
they were tracking in Malaysia in January 2000 and not putting 
them on a watch list for the FBI and the State Department, 
generally speaking, the information that was available, 
potentially available, on the 9/11 plotters was not information 
from traditional sources of foreign intelligence.
    So anyone who believes that in this long war of the 21st 
century against Islamist fanatics in the Middle East is going 
to be at all analogous to the Cold War, and that we are going 
to have a substantial flow of information from foreign 
intelligence and technical intelligence, I think is operating 
on a false premise.
    I believe that, furthermore, we are going to have to do a 
lot of our own vulnerability assessments. Some of the most 
sensitive intelligence, in a sense, about our own 
vulnerabilities will come from us, from people working on red 
teams, understanding the vulnerabilities of the electricity 
grid, the oil and gas pipelines and the like.
    And dissemination of that information will have to take 
place, but I think in very specific ways. Sometimes in a 
specific locality. If you have a vulnerability of the Golden 
Gate Bridge, a lot of people in San Francisco are going to be 
working on it, but people in the rest of the country do not 
need to know much about it. If you have a vulnerability of 
toxic chemical production and delivery, people in the chemical 
industry and the railroads will need to know about it, but 
probably not others.
    Now, that is self-generated vulnerability information, not 
really intelligence, in a sense, but I think very important 
information.
    I think that it is very important for us to realize that we 
are at war with Islamists from two sides of Islam.
    And I say ``Islamist'' to connote a totalitarian movement 
masquerading as a religion. I believe that Hezbollah and their 
supporters in the Iranian government, that Al-Qa`ida and their 
supporters inside Saudi Arabia and elsewhere, are about as much 
Muslims as Torquemada was a Christian. And in order to denote 
that, I use the term ``Islamist'' rather than ``fundamentalist 
Muslim'' or otherwise.
    But we are going to have for some time a nationwide problem 
with respect to Islamists, particularly from the Sunni side of 
Islam. And much of the useful information that we will obtain I 
think will be by first responders, by state and local law 
enforcement.
    This is one of the main reasons why I believe it is 
important to leave the FBI in the lead. I agree with Governor 
Gilmore on this point, because they have a long history and 
background of dealing with state and local government.
    It is true that their culture in the bureau is more, 
certainly, one of law enforcement, of grabbing one of the 10 
Most Wanted, rather than long-term espionage penetration 
operations, but they have done the later twice successfully, 
once with the American Communist Party and once with the Mafia.
    So I think the jury is still out, but at least for the time 
being I think we should stay with the FBI's responsibility.
    Let me close by simply noting, the last page or so of my 
remarks express that I believe one of the most important sets 
of intelligence information we will deal with in this whole 
area is counterintelligence information, and that is 
information about Islamist penetration of American institutions 
and presence in the United States.
    That sort of information is not wise to disseminate widely. 
I speak to you as the DCI who was on duty when we caught Rick 
Ames. And I rather imagine that those in the FBI who were on 
duty when Hanssen was apprehended would have a similar thought, 
that there were at least some aspects in both the bureau and 
the agency of internal information-sharing that were 
substantially too broad. And most counterintelligence officials 
on that sort of information think rather hard about the 
proposition that it sometimes is better to restrict information 
flow rather than broaden it.
    I think we have to realize that, in this world we live in, 
sometimes important objectives--disseminating information 
properly and keeping it away from those who should not have 
it--conflict just as, unfortunately, sometimes liberty and 
security conflict.
    And what we are going to need to do in the interests of 
doing the right kind--and in many cases, it should be 
extensive--of information-sharing, what we are going to have to 
do is make case-by-case determination of the types of 
information, what the source is and how we can disseminate it 
effectively without running into some of the problems of 
disseminating some types of information too widely.
    Thank you, Mr. Chairman.
    [The statement of Mr. Woolsey follows:]

                 Prepared Statement of R. James Woolsey

    Mr. Chairman, Members of the Committee, it is an honor to be asked 
to testify before you today on ``Information Sharing After 9/11: 
Perspectives on the Future''.
    Rather than deal with issues of organization and procedure related 
to information flow in these opening remarks, I thought it might be 
useful if I shared with the Committee some thoughts about the likely 
substance and sources of information that might be shared, since I 
believe that organization and procedure will be heavily influenced 
thereby. We need to understand what we are sharing and why before we 
design a system.
    First, I think that the source of information about vulnerabilities 
of and potential attacks on the homeland will not be dominated by 
foreign intelligence as was the case in the Cold War. As contrasted 
with, say, the type of ICBM likely to be installed in a Soviet silo one 
learns very little about terrorists by trying to look at them with 
satellites. Further, although we once had some good sources via signals 
intelligence about terrorism, the terrorist groups have learned to stay 
away from many types of communications that might be intercepted and to 
communicate only very vaguely on others--in part the result of US media 
having broadcast such stories as, e.g., how we were listening to bin 
Laden's satellite telephone. And it is very difficult to penetrate 
terrorist cells with spies--much harder than, say, penetrating the KGB 
or the General Staff of the Warsaw Pact.
    We have obtained important information on terrorism by our military 
success in Afghanistan and we do, and will, obtain much useful material 
via liason with foreign intelligence services. But the very disruption 
of Al-Qa`ida's overall command structure in Afghanistan has meant that 
we are dealing with a group of individual cells even more than in the 
past--even less likely to be penetrated.
    It should also be remembered that the 9/11 plotters made their 
preparations principally, although not exclusively, in the US and 
Germany. US foreign intelligence agencies basically don't operate here 
(the circumstances in which they could assist the FBI under the Foreign 
Intelligence Surveillance Act are quite limited) and in Germany they 
would rely on German authorities. The terrorists understood us well, 
and so they lived and planned where we did not spy.
    Thus if anyone is constructing organizations and procedures for 
intelligence sharing based on the assumption that there will be a flow 
of foreign intelligence dealing with terrorist threats to the homeland 
that is at all analogous in volume and importance to what flowed about 
the USSR and its allies during the Cold War, I think he is building on 
a false premise.
    Instead, in my view, we should focus heavily on how best to share 
two sorts of information about our vulnerabilities and potential 
terrorist exploitation of them.
    One source will be our vulnerability assessments, based on our own 
judgments about weak links in our society's networks that can be 
exploited by terrorists--e.g. (to mention two that have been widely 
discussed in official publications) dirty bombs in shipping containers, 
or transformers in the electricity grid. We need to do this sort of 
analysis systematically and, where possible, without widespread 
dissemination of our judgments beyond those whose help is needed to 
make these links more resilient. Sometimes this will involve a number 
of people in a specific local area, or in a specific industry--the 
extent and method of sharing this sort of information will depend on 
the vulnerability and the steps we need to take. We cannot, of course, 
make ourselves wholly invulnerable to attack, but we can take away (or 
make far less lucrative) a number of the more attractive targets for 
terrorist attack.
    A second source will be domestic intelligence.
    How to deal with such information is an extraordinarily difficult 
issue in our free society. Not only are our borders extremely open, 
even with some added post-9/11 restrictions, to legally-traveling 
workers, students, tourists, and many others, but illegal access to the 
US is of course very widespread.
    Further, if we focus for purposes of this discussion only on the 
Middle East, we must over the long run prepare to deal with terrorists 
from at least two totalitarian movements masquerading as religions: (a) 
Islamists from the Shi'ite side of Islam's great divide, such as 
Hezbollah, and those who support them, such as the government of Iran; 
and (b) Islamists from the Sunni side of Islam, such as Al-Qa`ida, and 
those who support them, such as wealthy individuals in Saudi Arabia and 
the Gulf and some portions of the Saudi Wahhabi religious 
establishment.
    Concentrating on the second group as the most immediate problem, we 
know from the FBI raids on terrorist financing operations such as those 
in Herndon, Va., and on cells such as the one uncovered in Lackawanna, 
NY, that we have a nationwide problem from Sunni Islamists. The 
difficulty of penetrating and learning of the efforts of such groups is 
very great. Much of what needs to be done involves cooperation with 
local law enforcement. Only an effective local police establishment 
that has the confidence of citizens is going to be likely to hear from, 
say, a local merchant in a part of town containing a number of new 
immigrants that a group of young men from abroad have recently moved 
into a nearby apartment and are acting suspiciously. Local police are 
best equipped to understand how to protect citizens' liberties and 
obtain such leads legally. In my judgment, on these important issues 
the flow of information sharing is likely to be more from localities to 
Washington rather than the other way around.
    It is first and foremost because of their history of working 
closely with local law enforcement that I believe we should leave the 
FBI in the lead with respect to domestic intelligence collection for 
the present. If the Bureau turns out not to be capable of refocusing a 
major share of its effort on domestic intelligence collection regarding 
counter-terrorism, a step that will to some extent require a change in 
the culture of a major part of the Bureau, then we will perhaps need to 
visit the notion of establishing an American version of Britain's MI-5. 
But I do not believe we are yet at that point.
    Second, we will need to mesh the above sort of information flow 
from the grass roots with work being done at the national level. Among 
the most important national level efforts will be counter-
intelligence--particularly understanding the activities in this country 
of individuals and institutions funded by radical Saudis and others in 
the Gulf, often allied with the most virulent clerics within the 
Wahhabi movement in Saudi Arabia. Not all Wahhabis or angry wealthy 
Saudis who give large sums to radical causes here or elsewhere have in 
mind supporting particular terrorist operations by Al-Qa`ida and its 
affiliates. But not all angry German nationalists of the 1920's and 
1930's became Nazis--yet that was the soil in which Nazism grew. And it 
is in the angry soil fertilized by Wahhabism and a segment of the Saudi 
establishment that Sunni Islamist terror has grown--with substantial 
help from the some $70 billion that the Wahhabis and their allies have 
spent in the last quarter century or so to spread their hatred around 
the world, including here.
    I would close by noting that the widest dissemination of 
information, particularly regarding our vulnerabilities or counter-
intelligence, is not always the best policy. In the aftermath of the 
Ames and Hanssen cases I am sure that both the Agency and the Bureau 
wished that at least some aspects of their internal information sharing 
had been more restrictive, not less so.
    In this context I would call the Committee's attention to a recent 
report of what may well have been an unintentional omission on a form, 
but which raises the issue of how important it is to make careful 
judgments about how widely information is disseminated. In a piece in 
Salon.com day before yesterday, June 22, by Salon's Washington 
Correspondent, Mary Jacoby, it was reported that ``[t]he policy 
director for the Department of Homeland Security's intelligence 
division was briefly removed from his job in March when the Federal 
Bureau of Investigation discovered that he had failed to disclose his 
association with Abdurahman Almoudi, a jailed American Muslim leader. 
Almoudi was indicted last year on terrorism-related money-laundering 
charges and now claims to have been part of a plot to assassinate Saudi 
Arabia's Crown Prince Abdullah.'' The article adds that the individual 
who was temporarily removed''. . . has access to top secret information 
on the vulnerability of American seaports, aviation facilities, and 
nuclear power plants to terrorist attacks.'' It further adds that the 
Bureau had discovered that the individual''. . . had failed to list on 
security clearance documents his work in 2001 with the American Muslim 
Council. . . an ``advocacy group, which was controlled by Almoudi [and] 
has been under scrutiny in an investigation of terrorism financing. . . 
.''
    The point is to get information to all those who need it, but only 
to those who need it and who can securely be trusted with it--unless by 
tear-lines and other techniques the information can be effectively 
declassified. It will always be the case, however, that you can make a 
better judgment about the weight you should give to intelligence of any 
variety the more you know about its source. And the more source 
information is disseminated, the more likely it becomes that the source 
will be compromised. Effective sharing of intelligence with those who 
can use it is a major and important objective, and so is avoiding the 
risk of compromising sources or vulnerabilities. Sometimes important 
objectives (liberty and security, e.g.) conflict more than we would 
wish. Each case of sharing, or not sharing, requires careful decision-
making. There is no substitute for that.
    Thank you, Mr. Chairman.

    Chairman Cox. [Presiding.] Thank you for you statement.
    Ms. Baird is recognized for her statement.

  STATEMENT OF MS. ZOE BAIRD, PRESIDENT, THE MARKLE FOUNDATION

    Ms. Baird. Thank you very much. It is a real privilege for 
me to be here with these panelists and with this committee, 
which has done such an extraordinary job in trying to grapple 
with the new challenges facing the country.
    Thank you very much for inviting me in to talk about the 
things that we have been considering at The Markle Foundation. 
I would ask also that my statement be included in the record.
    As the chair has indicated, reports due out this summer 
from the 9/11 Commission, from the Senate Intelligence 
Committee, as with the joint inquiry, are expected to be highly 
critical of our nation's intelligence and law enforcement 
community in its ability to collect and share the needed 
information.
    We can predict that they will report that the systemic 
barriers to information collection and sharing that existed 
prior to 2001, September 2001, which has already so effectively 
been articulated by the chair and Congressman Turner as a 
critical failure prior to 9/11, that those systemic failures 
exist today; they continue to exist today.
    A number of reforms are already begun to be discussed: the 
notion of creating a U.S. version of the British MI-5, the 
notion of creating a stronger director of national intelligence 
or DCI with stronger powers, which members of this committee 
have been considering in the Intelligence Committee.
    The introduction of these structural reforms, I believe, 
are going to awaken Congress, the administration, America to 
some new very large questions, some questions, which I had the 
privilege of thinking about in the mid-1990s with Congressman 
Dicks and Congressman Goss on a commission that was set up to 
look at the future roles of the intelligence community.
    Those are issues of whether we can still continue to 
organize ourselves with the line at the border, with the 
separation between domestic intelligence and foreign 
intelligence. And I raise this now only to say that this 
committee, Congress moved with great speed to create the 
Department of Homeland Security, in fact, relative to other 
major governmental restructurings and reorganizations.
    But I believe that, as these new recommendations come out 
this summer for other major structural reform, we are going to 
find that some very, very large and fundamental questions need 
to be grappled with first. And the consideration of whether to 
reorganize ourselves along a line at the border with separate 
foreign and domestic intelligence or whether to reorganize 
ourselves in some other ways functionally are going to cause us 
to take some time to consider those recommendations.
    And I do not believe that we have the time to wait in 
improving our information-sharing. I believe it has been 
pointed out by all three of the members of this committee who 
have spoken that the urgency was there years ago, but certainly 
the urgency is there now.
    And we need to move quickly to correct the situation, 
because information is the key to our future security. 
Information collection, sharing, while protecting civil 
liberties, is the essence for providing for our nation's 
security in this period of time where the biggest threats to 
our national security are from terrorists.
    So whatever reforms are pursued, we believe that we should 
create a system of information-sharing between the existing 
actors, and that that system can serve any future 
organizational structures.
    Using currently available technology, we believe that the 
government can set up a network that will substantially improve 
our ability to share information in order to prevent terrorist 
attacks, and that when this technology is paired with key 
guidelines that govern who gets access to the information, how 
it is used, that audit--so that someone like a Hanssen would 
not be able to go into databases where he had nothing to do, 
because, one, he would not have had the authorization, and two, 
we could have found that he was there, so he would not have 
felt it was an easy target--that this technology, coupled with 
strong policy guidelines, can quickly provide our country with 
both the ability to share information and the ability to 
enhance our civil liberties protections and our protections of 
sensitive requirements like sources and methods.
    We have proposed, through this bipartisan task force that 
includes people from the Carter, Reagan, Bush and Clinton 
administrations with substantial expertise in national 
security, which includes people from the technology community 
with substantial expertise, both in traditional mainframe-type 
systems and new technologies, and includes civil liberties 
advocates, we believe that the most important issue the 
government has to face is getting an information-sharing 
network created, and that this, as Congressman Harman has 
called it, ``virtual reorganization of government'' can be done 
quickly and effectively and is a fundamentally new way of 
getting the government able to improve its decision-making.
    I would be happy, in the question-and-answer period, to 
talk about the elements of a SHARE network, as we call it, that 
would meet these goals, but we do believe that it is achievable 
and can be done very quickly.
    So I would just close with saying that there are a few key 
features of a network to work. It has to be decentralized, 
which means that information has to go out to the local people, 
whether it is a local FBI field agent or a local police 
department, as well as come in from them. Because they will see 
things that, if put together with information collected by more 
central authorities tasked by the FBI or the CIA, will make 
sense, will create a picture that we would not otherwise see.
    We can do that using technology to provide authorization 
and permissioning and not create the kind of risks that Jim 
Woolsey and other have alluded to. And we can do it through 
things like minimizing, eliminating, the names of individuals 
until there is a demonstration of a need to know someone's 
name. We can do it in a manner that protects civil liberties.
    So I thank you very much for having me here, and I am very 
happy to answer your questions. Thank you.
    [The statement of Ms. Baird follows:]

                    Prepared Statement of Zoe Baird

    Good Morning, Chairman Cox, Congressman Turner and members of the 
Committee. I appreciate the opportunity to testify today.
    Reports due out this summer from the Senate Intelligence Committee 
and the 9/11 Commission are expected to be highly critical of our 
nation's information collection and sharing capability. As we await the 
release of these reports, we can predict one of their findings with 
near certainty: That systemic barriers to information sharing, which 
seriously hampered the efforts of our nation's intelligence agencies 
prior to the September 2001 terrorist attacks, still exist today.
    A number of recommendations have already been made about what 
further reforms are needed to better equip our government in the fight 
against terrorism. Some have recommended an American domestic 
intelligence agency, similar to Britain's MI-5, to improve collection 
and analysis of intelligence at home. Others have advocated the 
creation of a Director of National Intelligence (DNI) with greater 
authority than the current Director of Central Intelligence, to direct 
and coordinate the entire intelligence community.
    Once the debate begins in earnest, we will find ourselves grappling 
with a number of very complex questions. For example, does the ``line 
at the border''--the different rules for collecting and handling of 
intelligence depending on whether it is foreign or domestic--a line 
which has been eroded need to be substantially reconsidered? Must we 
find new ways to protect critical interests like sources of information 
or the privacy of our people because the line at the border or 
classification systems prevent us from fully understanding terrorists' 
intentions and capabilities?
    It will take time to determine the right course of action on 
proposals for an MI-5 or an DNI, and once that course has been plotted, 
implementing any structural reforms could take years. But we do not 
have the time to wait to improve information collection and sharing. We 
need to impress upon responsible officials the urgency of this task and 
we need to act now. The actions we take can accelerate the ability of 
any agency organization, present or future, to improve our security.
    Fortunately, by capitalizing on America's technological 
capabilities, we can begin to make our nation safer. Using currently 
available technology, the government can set up a network that 
streamlines operational and decision-making processes and substantially 
improves our ability to share information in order to prevent terrorist 
attacks. And when paired with clear guidelines to govern the system and 
effective oversight, the use of information technology can also be the 
best way to protect privacy and civil liberties.
    For the past few years, I have had the privilege to convene the 
Markle Foundation's Task Force on National Security in the Information 
Age. The Task Force, comprised of leading national security experts 
from the administrations of Presidents Carter, Reagan, Bush and 
Clinton, as well as widely recognized experts on technology and civil 
liberties, was created to focus on the question of how best to mobilize 
information and intelligence to improve security while protecting 
established liberties. In fact, one of our unifying principles is that 
information--managed through information technology--is the key to 
enhancing security.
    In our most recent report, Creating a Trusted Information Network 
for Homeland Security (http://www.markletaskforce.org/), the Task Force 
recommended the immediate creation of a Systemwide Homeland Analysis 
and Resource Exchange (SHARE) Network, which would foster better 
analysis and sharing of information among all relevant participants at 
every level of government, with built-in practical and technological 
safeguards for civil liberties. Or, as one of your own Committee 
Members, Congresswoman Jane Harman, has called it, a ``virtual 
reorganization of government.''
    The SHARE Network would represent a fundamentally new way of using 
information to facilitate better, faster decision-making at all levels 
of government. It has several key features:
        <bullet> SHARE is a decentralized, loosely coupled, secure and 
        trusted network that sends information to and pulls information 
        from all participants in the system. Such an approach empowers 
        all participants, from local law enforcement officers to senior 
        policy makers.
        <bullet> SHARE is based on the concept of ``write to share.'' 
        Instead of the Cold War based culture that placed the highest 
        value on securing information through classification and 
        distribution restrictions, SHARE recognizes that sharing 
        information makes that information more powerful because it 
        links it to other information that can complete the picture. 
        SHARE moves from a classification system to an authorization 
        system. By taking steps like incorporating ``tear lines'' in 
        document formats, SHARE would encourage reports that contain 
        the maximum possible amount of sharable information.
        <bullet> SHARE is a hybrid of technology and policy. The system 
        would use currently available technology to share and protect 
        the information that flows through it. And when paired with 
        clear guidelines that would determine the collection, use and 
        retention of information and who should have access to 
        information, it can both empower and constrain intelligence 
        officers, and provide effective oversight. Such an approach is 
        also the best way to protect privacy and civil liberties.
        <bullet> SHARE allows for vertical and horizontal co-ordination 
        and integration. Information would be able to flow not just up 
        the chain of command, but also to the edges of the system.
        <bullet> SHARE enables analysts, law enforcement agents and 
        other experts to find others with common concerns and 
        objectives, to come together in shared workspaces, to form 
        ``virtual'' communities to exchange information and ideas.
    While those are just a few of the technical and policy features of 
the SHARE Network, I think it would be useful to give you a real world 
illustration of how the system could actually operate.
    Say a field agent at the Chicago FBI office and a CIA operative in 
Kabul become aware of separate leads that if put together might point 
to a bio-warfare attack in Chicago. Under the current system, reports 
from these two agents are unlikely to have enough actionable 
information to be moved through the system. However, using the SHARE 
Network, these reports would be linked through similar key words such 
as ``virus'' and ``Chicago'' or other linking tools. Instead of being 
housed in classified files and filing cabinets at the CIA and FBI, 
these reports would be distributed electronically to people who should 
see them. They also would be posted and available to be pulled by 
network participants with a particular interest. An analyst at TTIC, 
for example, might see both reports, contact the CIA and FBI agents and 
others to discuss their reports, begin to connect the dots and define 
actionable objectives. The FBI, CIA, and TTIC players could form ``a 
virtual task force'' by reaching out to other relevant agencies and 
individuals, perhaps at Department of Homeland Security, the Centers 
for Disease Control or a local police department, for more information. 
And they could organize the work themselves, without losing time or 
going to their superiors in Washington for approval.
    Based upon their discussions, this group could now create 
actionable intelligence for their agencies: the CIA might elevate the 
information to a higher level, to the director, or perhaps up to the 
president. Through local contacts, the FBI would have the option of 
notifying local police, so they could watch for activities related to a 
potential plot.
    Meanwhile, because access to certain kinds of personally 
identifiable information would be restricted, and systems built in to 
verify the identities of those permitted access, we will have improved 
information sharing while better protecting our privacy and civil 
liberties.
    Members of our Task Force have met with a number of officials at 
federal government agencies regarding our recommendations--some 
repeatedly--and have seen a high level of interest. In fact, a number 
of government agencies have been moving to direct the creation of 
processes that use key elements of the SHARE Network. The FBI, for 
example, has taken a number of positive steps in developing its new 
information sharing policies, including adopting a potentially 
extremely important policy of ``writing for release,'' which encourages 
tear lines and ``shar[ing] by rule and withhold[ing] by exception''.
    TTIC's posting of intelligence reports and other items on ``TTIC 
Online,'' although not broadly available, is a step toward the kind of 
sharing we contemplate. And the Homeland Security Information Network, 
currently being developed by DHS, could strengthen the flow of real-
time threat information to state, local, and private sector partners if 
they plan to share adequate information.
    While this progress is positive, an agency-by-agency approach is 
not adequate. Individual agencies can only go so far before they 
confront obstacles to sharing with other agencies of the federal 
government or with state and local actors, not to mention the 
difficulties involved in working with private sector entities. In order 
for this networked approach to succeed, a national framework, such as 
our proposed SHARE Network, is critically needed.
    Members of Congress can contribute to our nation's ability to 
prevent and respond to terrorism by calling for the creation of an 
information sharing network with the characteristics of the SHARE 
Network. In our Report, we called for DHS to be designated the lead 
agency of an interagency, public-private process to establish the 
concept of operations for the network. Policy guidelines need to be 
written that both empower government officials to share information and 
also strengthen protection of privacy and other civil liberties. Agency 
CIOs need to be given the direction, authority and budgetary 
commitments to build the network. CIOs also need to have the funds 
protected so that the funding is not reallocated. Agencies need to be 
encouraged to acquire information technology that is interoperable 
(across agencies, across systems, and with legacy systems), and has 
common data standards as well as security, access controls, identity 
controls, and audit capabilities. Availability of technology is not a 
hurdle to adoption of the SHARE Network; the hurdle is the manner in 
which agencies acquire technology.
    In addition, proposed and current information sharing initiatives 
such as the Homeland Security Information Network, TTIC, US VISIT and 
CAPPS II need to be jointly reviewed as to whether they support these 
network objectives. Otherwise, waste, stovepiping and redundancy will 
occur if they are not built according to a common concept of 
operations.
    The collection, use and sharing of information by government 
agencies needs to be guided by both Presidential directive and by 
Congressional oversight. We laud Congress's commitment to establishing 
internal oversight mechanisms within the DHS, including a privacy 
officer and a civil rights and civil liberties officer. We encourage 
the further development of informal and formal means of congressional 
oversight of the government's access to, use, retention, and 
dissemination of private sector data.
    Other government bodies have a role to play as well. The Technology 
and Privacy Advisory Committee to the Secretary of Defense, on which I 
served, recently built on the Markle Task Force Report and made further 
recommendations for processes to protect privacy and civil liberties, 
including requiring in certain circumstances that an agency articulate 
the relationship to terrorism of information they seek on U.S. persons, 
and use of the FISA court for domestic information collection in 
sensitive circumstances.
    Finally, as we have outlined in our Report, it will require 
continued engagement from the President himself, the heads of 
government agencies, as well as continual oversight from Congress to 
ensure follow-through. Indeed, agencies' performance towards a virtual 
reorganization should be evaluated by Congress after a reasonable 
implementation time, using specific and clear objectives for improved 
information sharing, based upon the set of metrics in our Report. If an 
agency has not performed adequately, the President and Congress should 
consider making any necessary changes.
    While government migrates to the kinds of IT systems business has 
used for years to achieve the capabilities described above, there are 
immediate steps that can be taken to begin reaping the benefits of new 
business processes. We should immediately create electronic directories 
to link people in different agencies working on the same problem, to 
identify experts in the private sector and universities, and to 
indicate which agencies have information on subjects of interests. We 
should adopt clear rules empowering government officials to get the 
information they need from other agencies. We could begin by ensuring 
that detailees at intelligence fusion centers have online access to all 
information. To facilitate sharing, we need to revisit the application 
of the ``need to know'' principle. To protect privacy, these rules 
should allow access to information without identifying U.S. persons by 
name, and establish processes for learning identities when necessary. 
And, to ensure greater public and congressional confidence, we need 
clear guidelines on how people get their names off watch lists, and how 
they seek redress for adverse government actions. The US VISIT 
contract, the development of the Virtual Case File at the FBI, the 
ongoing work of the TTIC and the TSC all offer opportunities to achieve 
critical, immediate incremental reforms if they are required to serve a 
common vision instead of being developed in stovepipes.
    Implementing a system like the SHARE Network would allow agencies 
tasked with protecting our nation from terrorism to build information 
sharing into their overall mission before, and as part of, any major 
restructuring of our domestic or foreign intelligence agencies that 
Congress might undertake in the future. It would prevent information 
from being kept in agency silos, as too much still is, and would 
encourage analysts to push information to the edges of the system--to 
FBI and customs field agents, to police--instead of only moving 
information up the chain to the next level in an agency hierarchy or to 
a narrow set of analysts or operational personnel who are not allowed 
to share it with others.
    Information, managed through technology, is critical to enhancing 
our security while protecting important civil liberties. Information-
sharing itself is not the goal; rather, it is the means by which we can 
most effectively enhance security and protect privacy, by maximizing 
our ability to make sense of all available information. The nation can 
never sufficiently harden all potential targets against attack, so the 
government must develop the best possible means to obtain advance 
warning of terrorist intentions through better intelligence.
    The network the Markle Task Force has proposed would substantially 
improve our ability to uncover threats and prevent terrorist attacks. 
The technology to create such a network exists and is used in the 
private sector every day. Given the proper priority in budgets and 
leadership, we believe that it is possible to develop and implement 
major steps immediately, and many key elements of the SHARE network in 
about eighteen months.
    Since September 11, many people in the government and the private 
sector have given a great deal of thought and effort to the problem of 
how our nation can use information and information technology more 
effectively to protect people from terrorism while preserving our civil 
liberties. Our Task Force has sought to contribute to the solution by 
providing the framework for a national strategy and an architecture for 
a decentralized system of robust information-sharing and analysis that 
makes the most effective possible use of information while instituting 
guidelines and technologies to minimize abuses and protect privacy.
    Thank you.

    Chairman Cox. Thank you very much for your statement.
    Thank each of you for your statements.
    The chair will now recognize members for questions that 
they may have. As is our custom, I will recognize those members 
who were present within five minutes of the gavel in order of 
their seniority on the committee. Those arriving after that 
time will be recognized in order of appearance.
    I recognize myself for five minutes.
    Let me begin by asking how each of you recommends Congress 
conduct proper oversight of whether the Department of Homeland 
Security, which, as we all recognize, is central to 
information-sharing, analysis and distribution, is getting the 
information that, by statute, it is supposed to receive.
    We all know that, even at the collection level, we do not 
know what we do not know. The entire Department of Homeland 
Security is, roughly speaking, in that position. The statue 
requires that even without a request, precisely because they do 
not know what they do not know, information should be provided 
to them without asking.
    How can Congress properly oversee whether that statutory 
mandate is being fulfilled? I would address it to each of the 
panel members.
    Mr. Gilmore. Congressman, I think that the leadership of 
the Department of Homeland Security wants to have good 
interaction and communication with the Congress. I have never 
heard anything except their desire to have a good working 
relationship and to share that information.
    Naturally, the committee has its budgetary power and 
authority. But I believe that a focus, putting the Congress 
into one focal point, which really is this committee, and any 
counterpart that it has in the Senate, gives at least the 
department a single place to go in order to communicate 
appropriate information. And that, I believe, is why this 
committee is so important, as creating that focal point.
    Naturally, within the structures of the Congress, you have 
to have good communication on the appropriations side, so that 
there is some overarching strategic view of what the Congress 
wants to do with the department. But once again, this 
committee, I believe, serves that focal point. But the 
Congress, itself, you can use its budgetary authority. But I 
believe that there is a good desire for interaction.
    Chairman Cox. And let me ratchet this question up to make 
it clear where I think the toughest problem lies, because, 
Governor Gilmore, as you point out, to the extent that at least 
the House has organized itself so that there is focal point for 
oversight and authorization of this new department, we have 
accomplished that task.
    But the greater problem is that if we are trying to assist 
the department in fulfilling its statutory mandate, we have to 
make sure that all these other agencies of government, 
including the entire intelligence community, including law 
enforcement, are sharing the information that, by statute, they 
must share with the department.
    And that would require oversight that is even broader than 
the collaboration that we have put together here in the 
Congress to make this Homeland Security Committee.
    So what tools ought we to use? And I know you are each 
familiar with the tools of Congress. How might we deploy them, 
in order to make sure this job gets done?
    Mr. Woolsey. Mr. Chairman, I do not think this can be done 
effectively without having some sort of a joint hearing in 
which representatives from the Department of Homeland Security 
and from the DCI and from the FBI are present, because the 
latter two are going to be the major sources of information 
from outside.
    Now, these could be difficult hearings. For example, if I 
am correct in my assessment and most of the information from 
foreign intelligence on a continuing basis is going to be from 
liaison services, from friendly services in the region, and 
each of them says, ``No way, no how you are going to share 
this, CIA, with anybody,'' we have a problem.
    I would think that executive session hearings, cooperative 
hearings with intelligence community and those responsible in 
the Judiciary Committee for the FBI, would be things that one 
might want to explore.
    But I do not see any way of really getting at this other 
than having the other agencies at the table and doing it in a 
classified environment.
    Mr. Boehlert. Will the gentleman yield to the Chair?
    Chairman Cox. Certainly.
    Mr. Boehlert. I also serve on the Intelligence Committee, 
and this is something that concerns me.
    As the chairman said, you do not know what you do not know. 
If we had these hearings, joint hearings between Intelligence, 
Homeland Security behind closed doors, highly classified, but 
we do not know what we do not know.
    So if DCI says, ``We are sharing all pertinent information 
with the secretary of homeland security,'' how do we know if he 
is not telling the truth? How does the secretary of homeland 
security know he is not telling the truth?
    Mr. Woolsey. Well, in a classified environment, and with 
Intelligence Committee members or chairman present, one could 
presumably ask more specific questions, such as, ``Have you 
gotten anything in the last 12 months from the government of 
Jordan? If so, what?''
    I do not think a vague sort of a general question, ``Have 
you given us everything that we ought to have?'' will produce 
much more than, ``Sure.''
    But I think if one wants to get into this, that is the sort 
of question I think you have to ask, because much of this 
information, if it is foreign intelligence--now, the FBI is a 
different question, but much of this information, if it is 
foreign intelligence, I think will come from liaison services. 
And each one of those is a unique and delicate relationship.
    Ms. Baird. I am going to take a little contrarian position 
on that question. I think it is very difficult for Congress to 
know whether particular information is moving. I think you need 
to be much more focused on the rules for moving information and 
the process.
    For example, if this committee or Congress called on the 
Department of Homeland Security to take responsibility for 
creating a public-private process to develop a concept of 
operations for how information moves across all these agencies, 
what are the requirements of what the FBI needs to share with 
DHS, and how does it get shared, and uses the technology to 
automatically--the rules require that the technology 
automatically moves information if people have certain levels 
of authorization to receive it, and then there is an audit that 
you can build in both with technology and with people to see 
whether or not that has happened.
    And so this committee could, through requiring DHS to 
create a process for developing the concept of operations for 
information-sharing between agencies, impact whether or not 
there are rules in place and automatic tools for auditing and 
overseeing the implementation of those rules that is much more 
comprehensive than the committee could touch on by looking into 
specific instances of information-sharing.
    The second thing that I think you could do is create--
whether it is through joint hearings or some kind of inquiry 
into the information-sharing programs of different agencies 
that are being set up to see to what extent they are being set 
up under common frameworks that allow sharing between them.
    So, for example, you have even just within the Department 
of Homeland Security the US-VISIT program, which is going to 
have billions of dollars put behind it, the Homeland Security 
Information Network, the CAPPS II program, which is struggling 
to find its way but will and probably has been very costly, 
even within that agency. But then you also look to the FBI and 
the development of the FBI's virtual case file and the 
watchlist information.
    And you could have these various programs in front of the 
committee or the committee could consult and look at the 
various programs and review them jointly and see whether or not 
they are being set up to make it possible to even share 
information between these programs or whether or not the money 
is being put into stovepipe programs where the information will 
not get shared as part of a system.
    So I would encourage you to think that your most powerful 
role would be systemic and one which influences the process of 
information-sharing, rather than an inquiry into specific 
information and whether it is moved.
    Mr. Gilmore. Mr. Chairman, may I just add just sentence or 
two--
    Chairman Cox. Yes, Governor Gilmore, please.
    Mr. Gilmore. --if I could?
    First of all, I concur with Ms. Baird's view that the 
structural oversight is an appropriate place for the committee 
to look. But, in a direct answer to Congressman Boehlert's, you 
do not know what you do not know, but you can know what you 
want to know.
    And that means that you have to have a committee that is 
steeped in expertise and works with this on a constant basis 
and understands what you consider to be the appropriate lines 
of inquiry.
    You can know what you want to know because of your 
expertise. That is the importance of centralization of this 
thinking into a committee such as the one that we are before 
here today.
    And then through the use of the vehicles that the director 
and Ms. Baird has talked about, then you can probe as to 
whether or not what you think is important is, in fact, being 
submitted to the department.
    Chairman Cox. Thank you very much. My time has expired.
    Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Baird, in your report and your statement, you mention 
what I think is probably the key to accomplishing the things we 
are not talking about, when you suggest that we need a series 
of presidential executive orders to carry out the objectives 
and to establish the guidelines for the agency's collection and 
use and sharing of information. And Mr. Woolsey raised those 
issues.
    And I think one of our dilemmas is that the whole concept 
of the collection and use of intelligence has changed, because, 
as you said, much of the information we need to collect, it is 
available internally--our own vulnerabilities in sharing from 
the private sector, with the government, the ability to take 
foreign intelligence and limit its accessibility, and yet to be 
able to share what you can down through the FBI and even into 
local law enforcement. And we have never had to do that before, 
in terms of the intelligence community.
    So we have a multitude of players. And now, as you see from 
the chart, we have developed a multitude of federal agencies 
charged with similar responsibilities.
    And as you said, I believe, Mr. Woolsey, your 
recommendation was to leave the FBI in charge of contacting, 
working with these local officials, because, as you said, we 
all know they have done it for years. And yet, the Congress 
laid the Department of Homeland Security right in there beside 
them and said that it is your responsibility to communicate 
with local folks and local agencies.
    And in our work on this committee, we see that interplaying 
already, because DHS is trying to communicate with local 
officials, and we have briefings from TTIC periodically. And on 
the same day that we get a briefing from TTIC, I will get a 
memo in my office in my district in Texas from the FBI telling 
me something else, something different about the threat that we 
currently face.
    So the key, I think, as you suggested, Ms. Baird, we have 
to get to the point where the one person who can bring all this 
together will do it, and that is the president. Because our 
agencies are going to continue to build stovepipes. In many 
ways, we mandate some of them to be built. And until we put 
this on the table, and all the players are told through 
executive order that this is the system you must build, this 
system will never be built.
    And I really do think that if any members of our committee 
have not had a chance to hear The Markle Foundation 
recommendations, that I would urge each of you to ask Ms. Baird 
to come by and give you a briefing.
    Because you have to make the decisions about having a 
comprehensive, government-wide information collection and 
dissemination database, with all of the controls that you 
suggest, and accommodating the concerns that Mr. Woolsey has, 
and all of our agencies must rely on this single database for 
the collection and sharing of intelligence. And those in the 
high-tech community tell me this can be done.
    And until we do it, we are going to still stovepipe and, I 
suspect, spend a whole lot more money, taxpayer money, and not 
get the job done that we could get done if we had approach it 
correctly.
    And along the way, all these policy decisions about who 
gets to share what and all those decisions have to be made. And 
as I understand, your statement of the day, Ms. Baird, those 
kind of things have to be contained in presidential executive 
orders as well.
    Am I fairly describing the concept that we are both 
mutually interested in pursuing, Ms. Baird?
    Ms. Baird. You are, and I thank you for describing it.
    And I thank you for the time you took to let us come in and 
show you a little computer-based visualization of how the 
system might work. And it would be a real privilege if anyone 
else would like us to come by and do that as well. We have done 
that with the committee staff.
    The one thing I might expand on is the issue of, you know, 
people are a little afraid of databases because of the civil 
liberties concerns. And we are not talking here, of course, 
about a single, you know, big super-computer sitting somewhere 
in the government with all the data in it on everybody in the 
country.
    We are talking about leaving information where it resides 
but having people pointed to it to find it because of common 
interests. We are talking about a decentralized system that 
allows people to communicate directly with each other and to 
use this, as the congressman has called it, a database--you 
have not sat where I did, talking about the Poindexter program, 
so you may not have quite as sharply in mind that sensitivity. 
But it is a notion of information moving where it needs to get 
quickly and of people being able to find information.
    So instead of having to play a game of Go Fish and sitting 
at your computer and saying, ``Do you have any information on 
water reservoirs?'' and sending that out to a lot of people or 
doing a Google or Yahoo search, our recommendations envision 
people having directories that tell them who is working on a 
problem in government at all levels of government, including 
state government, where some of our best work is done, at the 
state and local level.
    It is a system where you can find the people who are 
working on the same problem you are working on and a system 
where you can get information that has been written on an 
unclassified basis with the name extracted or the source of the 
information extracted.
    Because the database gives you access to all this 
information on an unclassified, or sensitive but unclassified, 
basis that enables you to know where to go to request more 
information or to dig more deeply.
    So I thank you very much for what you have said. I would 
also emphasize that something like this cannot happen. And we 
will continue to have unconnected dots in this country and 
continue to be unable to prevent terrorism if we do not have a 
common concept of how information gets shared across the 
government.
    The leadership has to come at the federal level. We have in 
our reports that the leadership has to come from the president.
    Forgive me for going on here, but I would make one other 
comment. Much of the concern about government programs that are 
really critical--we need to be able to screen airline 
passengers in some manner; we need to be able to correlate 
disparate bits of data that, when put together, does indeed 
tell us something and enables us to be smarter than terrorists.
    But much of the problem that has developed with the 
concerns about what happens to our civil liberties if we create 
these programs is that there has not been at a politically 
accountable, at a congressionally accountable level, a 
statement made of where do we fall in this accommodation of 
both security and civil liberties. And so you have very well-
intended people in government developing programs, but they do 
not have the policy guidance from the political level.
    So that is another reason why it is really critical, in our 
judgment. And as I say, this is a very broad group of people 
from every administration in the last four. We concluded that 
is critical that the president take the leadership and call for 
the creation of a network like this and set the guidelines on 
what are the American values of this kind of system.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. Thank you. The gentleman's time has expired.
    The gentlelady from Washington, the vice chairwoman of the 
full committee, Ms. Dunn, is recognized for eight minutes.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    I want to ask you to address a broader question, if you 
would, please. There are several proposals floating around 
before the Congress right now, all of which are aimed at 
overhauling the intelligence community.
    For example, the chairman of the Intel Committee, Porter 
Goss, has suggested elevating the DCI and giving him or her a 
budget authority over the intelligence community. The ranking 
member, Jane Harman, has proposed developing a new position, a 
director of national intelligence, to oversee the intelligence 
community.
    If you were to come up with a plan to overhaul the 
intelligence community and its structure, what would that plan 
look like?
    Mr. Gilmore. Congresswoman, I had a chance to review the 
two pending statutes that are before you, briefly, last night. 
And, to race right to it, I think that the real challenge that 
I would want to focus on is that if you are going to place 
somebody who is the director of national intelligence that you 
make sure he has the authority to run the show. If you are 
going to put the responsibility with him, then the 
accountability has to rest with him, and that means that he has 
to have the authority to do the job.
    I may not understand the statutes completely, but I had 
some sense of nervousness that, perhaps, some of the people at 
the second tier might end up actually with more knowledge and 
authority than the guy at the top, in which case he is a 
sitting duck. And I would be concerned about that and ask the 
Congress to make sure that that does not happen.
    I absolutely believe that budgetary authority is called 
for. In fact, when our commission first recommended a White 
House organization to develop a national strategy, we thought a 
central component of that would have been budgetary authority 
over all the different departments and all the different 
divisions in order to centralize some authority and power into 
one place to create that strategic vision. Likewise, I think 
that that model would work here, as well.
    The third piece that concerns me is--and I do not know how, 
exactly, how you deal with this; I think this is going to 
require a lot of work, frankly--is what do you do about the 
Department of Defense, where all the money is and all the power 
is and all the knowledge is and all the assets are.
    And they do not work for the CIA, and they do not work, 
presumably, for the DNI that would be under proposal here. And 
they do not work for the DHS either, which is the real 
challenge of having a separate department that focused on this 
area that does not have its complete hands around all of the 
elements and aspects of it.
    There are some suggestions in these statutes for some 
liaisons and some conferral-type of requirements and so on. And 
I think that the Congress just has to focus on that exceedingly 
carefully, in order to figure out how you are going to create 
that power structure in a way to centralize it at the director 
of national intelligence, which I think is a good idea.
    Mr. Woolsey. Congresswoman, the director of central 
intelligence, in the 1947 statute, as the title suggests, is 
always supposed to have been head of the intelligence 
community.
    It is just that the community did not really exist in 1947. 
Not only were there no satellites, there were not any U2s, 
there was not any Defense Intelligence Agency, there was not 
any National Reconnaissance Office, there was not any National 
Geospacial Agency.
    And most of the National Security Agency was a collection 
of military service battlefield signals intercept operations. 
They had penetrated a very important Soviet code, so 
occasionally NSA would come up with something and give to the 
president, or after 1947, I guess, the DCI.
    But the community really kind of was the CIA. And people 
did not think of there being two different jobs here.
    As time has gone on, the change in technology, the growth 
of all these other agencies, the fact that most of them spend 
most of their focus on matters related directly and immediately 
to military needs, has produced the situation in which the 
director of central intelligence is in an odd situation. He is 
sort of the chief executive officer of the CIA, which is down 
maybe a sixth or less of the community.
    And then with respect to the rest of the community, he is 
sort of the honorary chairman of the board. He does not have 
any executive authority in those other companies or agencies. 
He can kind of set the agenda and he can go out and visit them 
and he can help them get money sometimes, but he cannot move 
money around, he cannot move people around.
    So, furthermore, his need to respond to the Congress has 
grown rather. Even in 1993, Congress was in session 195 days, 
and I had, as DCI, 205 appointments on the Hill that year. I 
was up here an average of more than once a day. And I think the 
time requirements of oversight have gone up probably since 
then.
    So I think there are clearly two jobs there now. There is a 
job for someone who manages the CIA in the same sense that the 
director of the National Reconnaissance Office manages the NRO. 
And there is a job for someone who is the overall head of the 
community and has a lot to do with dealing with the Congress 
and the like.
    I believe that would probably help. That is more along the 
lines of Congresswoman Harman's approach.
    I believe that that would help rationalize some things in 
the community, because it is very difficult in the current job 
for there to be a dispute between, say, NSA and the CIA and 
have the DCI settle it, because NSA, understandably, regards 
him as in the CIA's camp, not as some neutral overall official.
    I rather like the idea that is in Congresswoman Harman's 
bill of having some substantial aspects of joint authority 
between the secretary of defense and the DCI. Having a partner 
whose concerns and yours substantially overlap is not that bad 
in the Washington that we are all used to, with all of its 
rather more solid body-checking checks and balances.
    I had two excellent secretaries of defense to work with, 
Les Aspin and Bill Perry. For meetings that we co-chaired, I 
had a baseball cap made up with ``Chairman'' on it. And when I 
was chairing, I would wear it, and then I would put it on Bill 
Perry's head, and he would wear it. We would just work 
together.
    It is not a good idea to ignore the fact that DIA--many 
aspects of the NRO, many aspects of NGA and many aspects of NSA 
actually are designed now to work closely with combatant 
commanders. And to put the DCI in as a sort of czar--the word 
``czar'' gets used from time to time about having a director of 
national intelligence. And my reaction to that is that 500 
years of rigidity and stupidity followed by the triumph of 
Bolshevism is not a good model for the management of the 
American intelligence community.
    Now, I do not like czars. But I think that one could craft 
the statute--and I think Congresswoman Harman's is close--that 
has some important dual responsibilities, so that the DCI or 
DNI has more than he or she has now, a partnership is forced 
between Defense and that office, and the management of the CIA 
and its espionage and its analysis as an agency is separated 
out.
    One final point: I would keep the title of the overall 
person who is responsible for the community DCI, director of 
central intelligence. That is what it always was supposed to 
be. You can come up with a new title for the director of the 
Central Intelligence Agency out at Langley. Put the DCI, the 
overall head, somewhere downtown, hopefully in the Executive 
Office Building, and give him or her responsibility as a 
partner with the secretary of defense for overall resources and 
personnel and management of the community.
    Chairman Cox. Yes, of course.
    Ms. Baird. I would comment briefly that I think the members 
of our task force, many of whom have testified on these issues 
of the DCI or an MI-5 would nevertheless take the position that 
the most important thing Congress needs to do is what 
Congressman Turner was describing, the development of an 
information-sharing across both the domestic and foreign 
intelligence capabilities and the military and state and local.
    And regardless of how you come out on the structural 
reforms that are needed, on the structural reforms, we are 
actually looking now in the next phase of our work at this 
issue of the line at the border and how information can be 
collected, both internationally and domestically, and shared in 
a way that is most effective.
    And I think the Congress will find that if it looks 
separately at a DNI or DCI and separately at an MI-5, as 
opposed to looking at the whole system, that you will be living 
in the last generation as opposed to the next generation, and 
that Congress will need to look at whether or not you maintain 
a separate foreign and domestic intelligence for good reasons, 
where are the areas where we cannot keep them separate. I mean, 
for example, just looking at airline passenger screening, which 
this committee has certainly been very close to, there is a 
question of whether we can treat our citizens and U.S. 
nationals differently than the way we treat people coming in 
from Europe and others.
    And these are new questions that we have to deal with. And 
will we forever be able to collect foreign intelligence without 
any of the rules that we have applied in collecting domestic 
intelligence, or will other countries expect that there will be 
some extraterritoriality of our civil liberties? So these are 
things that we are going to have to grapple with.
    Thank you. Thank you, Chairman.
    Chairman Cox. The gentleman from Washington, Mr. Dicks, is 
recognized for eight minutes.
    Mr. Dicks. Thank you all, and I appreciate all of your good 
work and statements.
    And, Jim, good to see you again.
    Ms. Baird, I have not had your briefing yet, but I am 
looking forward to it.
    You know, I was on the Intelligence Committee for eight 
years and ranking for four years. And there is this whole 
concept of stovepipes and how do you share information. The 
examples I have seen where I really think you saw great sharing 
of information are the joint intelligence centers, which are 
set up when we are in a military conflict. We had one in 
Kosovo. We have one in Iraq. In fact, I think we visited it 
when we were there.
    It is in that concept where I think the best work is done. 
And when we are in a military operation, your national 
technical means come right into this center. HUMINT is brought 
in. You have a relationship with your allies. And it all comes 
together in one place. The military then can get a good picture 
of what is happening and make their decisions.
    It has always seemed to me if we could replicate that, 
where you have at the federal level people from the NSA, people 
from the CIA, kind of an overall center where information is 
shared.
    I like the idea of trying to share the information. I 
realize that what Jim Woolsey says about the restrictions on 
layers on information is going to be a problem. That will not 
be in the database, and should not be, I do not think.
    But I like the idea of trying to bring people together and 
share information at some level in order to make decisions.
    I completely agree with what Jim said about the information 
is going to come, I think, from the bottom up. I mean, the 
information that is important, as it did before 9/11--again, 
the information was there. We just did not act on it.
    This is one of the lessons I learned from my eight years on 
the Intelligence Committee. In situation after situation, we 
had the information. We just did not have the ability to act on 
it.
    You can share all the information you want, but if somebody 
does not take the initiative and say, ``Wait a minute, this is 
a serious matter that deserves to be given higher attention.'' 
I worry that you are still going to have a problem with a lot 
of data coming in, but who is going to make the decision and 
take the initiative to do something about it?
    Those reports that came in from the FBI field offices about 
these people training and that not being acted on is one of the 
greatest, I mean, to me, one of the most shocking failures that 
we had. And it was right there in the FBI, the New York office. 
It did not happen.
    The same thing happened in Desert Storm, Desert Shield. You 
know, all the information was there from the intelligence 
community, and yet we relied on government leaders in the area. 
And they convinced the president that somehow this was not 
going to happen. And we could not even get the deputies group 
back to make decisions.
    Again, I want to just focus on this one point. How do we 
improve that? Another thing that worries me, too. In talking to 
my people in the state of Washington, National Guard General 
Lowenberg for one, I do not get the feeling that there is the 
sharing of information between the federal and state level, 
mostly from the feds to the state. If you are going to try to 
encourage this sharing of information, you have to get the 
locals.
    And I agree, I think the FBI has the relationships locally 
to be able to work best with the local officials to get 
information and bring it back to the federal level.
    But how do we encourage that? How do we improve that 
relationship, which is just getting started now between the 
locals and the feds? Because that has not been there in the 
past. There has not been a lot--except at the FBI level, but 
with maybe FEMA or other agencies like that.
    But in terms of gathering information that is going to be 
important, how do we nurture that?
    Jim, do you want to take a crack at that?
    Mr. Woolsey. Well, quickly, everybody cannot do everything. 
And Homeland Security strikes me as being in a situation, with 
a lot of exceptions to this analogy, somewhat similar to the 
State Department. It is a customer for intelligence, but it is 
also a customer that is involved in implementing the policies 
that come out of the intelligence, and it is a customer that 
does some analysis itself.
    The State Department does a lot of intelligence analysis 
itself in the Bureau of Intelligence and Research, a small, 
very effective organization, 100 or so analysts, and they do a 
very good job on a lot of things.
    It is intimately involved in implementing the results of 
deliberations about intelligence, but it is not principally in 
the business of stealing secretes. It collects intelligence, it 
collects information, through diplomats talking to people 
overtly. But the CIA is who steals secrets and operates 
covertly.
    On the domestic side of things, it seems to me that the 
institutions that are collecting intelligence, in the sense of 
secrets that people want to hide, probably are going to be the 
FBI working with, as I said in a statement, state and local 
police.
    Because it is the local policemen on the beat whom the 
merchant has enough confidence to say, ``You know, there are 
these four young guys just in from Afghanistan or someplace, 
and they are acting kind of strange. You might want to keep an 
eye on them down at the corner.'' The local police have a 
better feel for how to get information like that without 
intruding on people's civil liberties, and building up 
confidence of their community and so forth, than anybody else.
    So I would see, in a very different kind of way, the FBI 
and the local police being the people who obtain information 
that some people may want to hide.
    Homeland Security is a consumer. It also does analysis. It 
also is involved in implementing decisions that are going to be 
made about pulling people together to do X or do Y, in somewhat 
the same way the State Department is.
    That is the genius of this chart, Congressman, is it sort 
of suggests that everybody is trying to do everything. And I do 
not think the system is going to work if everybody tries to do 
everything.
    Ms. Baird. Congressman, if I could comment and pick up on 
your use of the example of the Phoenix memo from the FBI agent 
who was concerned and thought someone ought to look at the 
issue of a foreign national taking flight lessons.
    And the kind of network that our group envisions is one 
where that Phoenix agent would not have to send that up the 
chain and take someone's time to give them authority to say, 
``Yes, it is important enough to follow up on your hunch.'' But 
instead, that agent would be able to find other people who were 
looking at people who were taking flight lessons or who have 
expressed concern about foreign nationals going to flight 
schools in the U.S.
    So that Phoenix agent would have found the Minneapolis 
agent and would have found perhaps a local police report from a 
local flight school in Seattle or Florida, talking about people 
taking lessons without caring about taking off or landing.
    And those people could create an informal group who work on 
the issue, who themselves, because of their own instincts and 
their own judgment, believe there is something to be worked on.
    Now, should they have access to data on individuals where 
there is no suggestion that they are involved in terrorism? Of 
course not. But those are the running rules of the system. You 
can protect civil liberties and make sure that a lot of local 
people do not get out of hand simply because they have access 
to information in the network.
    But I do not believe that you will ever get the kind of 
problem that you are talking about solved, if it always has to 
be hierarchical, as this chart suggests we structure 
government, where we have lots of boxes and you have to go get 
authority to do this and that. Instead, what--
    Mr. Dicks. Ultimately, somebody has to take action.
    Ms. Baird. Yes, indeed. But when the information--
    Mr. Dicks. Share a lot of information, but until we find 
somebody who is going to be smart enough to say, ``There is a 
problem here, we had better do something,''--
    Ms. Baird. Right.
    Mr. Dicks. --which did not happen at the FBI.
    Ms. Baird. But they are more likely to see it in a way 
where the risk is clear, if it is not just one guy writing a 
memo about one person going to flight school--
    Mr. Dicks. Yes.
    Ms. Baird. --but if, instead, that whole team comes 
together, and they have identified the pattern because they 
care about it.
    In terms of communicating with state and local actors, they 
ought to be part of that system, because they may see 
something. They may, you know, have brought in some people for 
some unrelated charge and learned something in that context.
    Or if you are talking about bioweapons, the local 
agricultural inspectors may see things that are funny. We show 
in our demonstration--Congressman Turner probably cannot forget 
it--the image of a particular virus on the snout of a hog, 
which a local agricultural inspector would be the first to see, 
not someone in Washington who is looking for what the next 
bioweapon might be.
    So that kind of respect for the potential perspectives of 
local people is something that is really important to focus on.
    Mr. Gilmore. Mr. Dicks, if I could add something. We 
certainly concur that you have to find the proper structures 
for information-sharing. That is why we recommended the fusion 
center, the TTIC.
    But one thing about our commission, it has been a strong 
advocate for state and local people, people who are out there 
walking the beat, people who are working at all levels of 
government.
    The real danger that we have always had is that things are 
just so federal-centric. And while I certainly concur with the 
Markle commission, that we need to get away from a federal-
centric type of approach--that was the heart of our 
commission--I would be a little more cautious about the 
decentralization idea. I think that has to be very carefully 
constructed.
    But the point is this: We have to find a way to get 
information going up and down the line. We see it centrally as 
a culture problem--a culture problem. An unwillingness, 
particularly for federal authorities, to share information or 
even to seek information. And yet, state and local people are 
often going to have that information. We have to put a 
structure into place that encourages that cooperation.
    Frankly, the FBI has not always done all that well. I was 
an elected prosecutor for six years, and the interaction with 
the federal was not particularly strong. But on the other hand, 
FEMA is a model for working together between federal, state and 
local people.
    So I think it is a cultural issue. We have to get away from 
our federal arrogance that says that all knowledge and all 
assets and all residue of wisdom is located in the federal 
government, when the truth is that that wisdom will be enhanced 
by a partnership between federal, state and local people in an 
appropriate system.
    Chairman Cox. Thank you for your responses. The gentleman's 
time has expired.
    The gentleman from Pennsylvania, Mr. Weldon, is recognized 
for eight minutes.
    Mr. Weldon. Mr. Chairman, thank you.
    And I just want to say that the last comment by Governor 
Gilmore I agree with totally. It has to be a partnership with 
the first-responder community locally. And he said that 
repeatedly in the Gilmore commission reports.
    And, Mr. Chairman, as you know, my perspective is coming at 
the local level. And let me say, first of all, we have some 
very successful programs that are operating.
    If our colleagues have not received the JRIES brief, they 
need to get it, because that program, which was stood up on 
March the 7th of 2003, has become an outstanding model, very 
aggressively supported by the law enforcement community. It was 
prototyped in New York and southern California, and now it has 
been made available around the country. They have just linked 
up our law enforcement communities in Pennsylvania.
    There is a two-way capability of information-sharing. There 
is a protected classification of data, where it does not have 
to go to the full level of being classified, but yet it is 
sensitive.
    And it is working. Our law enforcement community is, in 
fact, receiving information, they are providing information. 
When I met with them and went to their national conferences, 
and I have been to two of them, they gave instances where one 
municipality in Louisiana is sharing information about 
impending threats that may have use for law enforcement 
departments in California or other states on the other side of 
the country.
    So there is a successful process under way, actually 
established originally by the Defense Department, but then 
supported by the Justice Department, that I think is working. 
And I think it is working well, and we should build on that, 
and that, for law enforcement, I think, is doing a good job.
    In the case of the first responder from the fire and EMS 
standpoint, they do not need that kind of capability. And I say 
that as a former fire chief, representing the firefighters in 
the counry.
    They need information to know where to go to get resources. 
When Chief Morris arrived on the scene of the Murrah Building 
bombing in Oklahoma City, he did not need to know where the 
next threat was coming from, but he needed to know where he 
could go to get structural engineers, because he had an eight-
story high-rise federal building with a day care in the bottom, 
that proposed a life-safety risk.
    He needed to know where to get engineers to deal with the 
structural integrity of the complex while he was rescuing 
people.
    That is why the Homeland Security agency needs to have a 
resource capability where the first-responder command officer 
can know where to go to get help form the federal government.
    I remember, as I have said in this committee in the past, 
walking the freeway when it was collapsed at the Northridge 
earthquake, with the fire chiefs of San Francisco and Oakland, 
they were looking for people that were trapped inside their 
vehicles in between the two layers of the concrete structure 
that had collapsed on top of itself. And they were using dogs. 
And the dogs could not get down into the crevices of the 
sandwiched freeways to see whether or not there were people 
alive.
    And I said to them, ``Why aren't you using thermal 
imagers,'' which were a technology we developed for the 
military 15 years earlier that detect body heat used on our 
naval ships. And the two fire chiefs of Oakland and San 
Francisco said, ``What are thermal imagers?'' They had no idea 
that their tax money had been used to develop this technology.
    So there needs to be a resource capability for a local 
emergency responder leader to know where to go quickly to get 
information and technology to assist him or her in dealing with 
that. That is a separate capability of information. It does not 
involve intelligence, but it involves resources.
    And there is a third need, and members on both sides now 
have addressed this repeatedly, and that is the need for an 
interoperable communication system. The Gilmore commission has 
referred to this. It has been a major priority of the fire 
service. APCO has called for this consistently at its national 
level for the past three years.
    We still do not have a nationwide integrated emergency 
communication system, as we do in the military. Governor Ridge 
understands that. He is addressing that with more money. And 
members on both sides of the aisle have called for additional 
funding. And I think that should be a top priority of ours.
    So I think we are making good progress. And I do not think 
we have to throw everything out the window. I think we should, 
first of all, understand fully what is available.
    What I do want to focus on, again, gets back to my original 
concern at the beginning of this hearing. And that is what I 
think is the ultimate purpose of information-sharing for 
intelligence purposes, and also the sensitivity of the military 
having to be able to defend our information systems against the 
threat of cyberattack.
    It is no secret the Chinese have stood up a fourth wing of 
their military specifically to focus on cyberwarfare and ways 
to bring down our capability to respond to our threats and 
perhaps to disrupt our information capability here in America.
    And so, in anything that we do, whether its classified or 
unclassified, we have to take into consideration the security 
of those information networks.
    But in the case of data fusion--and I want to ask you this 
question, Mr. Woolsey, because you were the CIA director in a 
previous life.
    As far back as 1999, when the military was first developing 
the concept of data fusion for intelligence purposes, and when 
both the Navy's system, the Air Force's program and, more 
importantly, the Army system down at Fort Belvoir, the LIWA 
facility, the Land Information Warfare Assessment Center, was 
creating models that were supported by the private sector, 
companies like Northrup Grumman right on the cutting edge of 
this back in the late 1990s.
    And when the Congress specifically called and offered to 
provide the funding, as John Hamre said--he was deputy 
secretary of defense--to pay for this capability, the CIA and 
the FBI said, ``We do not need it. We do not need that 
capability.'' And I documented that in a meeting that was held 
with all three agencies on November the 4th of 1999.
    We put language in the defense bill. They still did not 
come around.
    A new administration came in. In fact, if you read the 
statement of General Downing when he resigned from the White 
House on June the 27th of 2002, one of the reasons he said he 
had resigned was because he spent much of his time at the White 
House struggling with a variety of federal offices to create a 
data fusion center that would keep a 24-hour watch on all 
interagency intelligence on terrorism activities.
    It was not until four years after we first proposed the 
idea, long before 9/11, of creating a data fusion capability. 
And I gave you a copy and put it in the record, the brief for 
the NOA.
    The NOA is exactly what the TTIC is. There is no 
difference. I mean, there is no difference.
    So why would the CIA and the FBI in 1999, in 2000, in 2002, 
in 2002 object to a capability? It is finally in the State of 
the Union speech; in January of 2003, President Bush announced 
the creation of the TTIC. Why? Because I think that relates to 
our ability to continue to provide that integrated data to 
allow us to understand emerging threats.
    So, Mr. Former CIA Director, give us your insights into 
what the real reasons are.
    Mr. Woolsey. My first insight is, I am glad I resigned in 
January of 1995.
    [Laughter.]
    But I think that the cultures of both the CIA and the FBI 
are ones that have produced, in a number of circumstances, 
great successes for the country, but they are very specific 
cultures. And neither one is particularly oriented toward 
sharing data or information.
    The CIA culture is really, I think, driven in many ways by 
the clandestine service. It is one in which the more important 
what you are doing is, the fewer people are going to know about 
it.
    And you spend a lot of time cultivating an asset, obtaining 
something from him or her. And ideally you treasure it, and the 
director of operations knows about it, and the DCI knows about 
it, but it is so important almost nobody else, except the 
president, does. And that is success.
    For the FBI agent, generally speaking, I think success is 
bravely kicking down a door and grabbing one of the 10 most 
wanted and helping a prosecutor get him put away for life. And 
it is participating in investigation to that end.
    And the people who do those things do, I say again, in many 
circumstances great things for the country.
    Neither one of those cultures is particularly oriented to 
saying, ``Hey, let's have a data fusion center in which 
everybody gets to know what I have come up with and what I am 
doing.'' I mean, it is just sort of oil and water.
    And so, what one needs to do is find ways--and that is sort 
of what my remarks were focused on--that we can encourage the 
system to share what needs to be shared in a way that does not 
compromise things like sources and methods and 
counterintelligence information and the rest, and leads both of 
those fine institutions into an amended version of their 
cultures, not one that rejects it, but an amended version.
    And it takes time, it takes effort, it takes leadership, it 
takes cooperation between the Congress and the heads of the CIA 
and the FBI. And it is not going to happen fast, because one is 
really kind of swimming against the stream.
    But we do not want to throw out those two cultures as we 
are doing it, because in other times and circumstances what 
they do is extremely valuable and useful.
    Ms. Baird. The proposal that you have raised, I will be 
very interested in reading and interested in seeing whether it 
has some solutions for some of the problems that TTIC is 
facing.
    TTIC, I think, has actually started up very effectively and 
has moved quite quickly to improve the fusion of information 
from different agencies. Unfortunately, most people at TTIC 
still do not have access to the data from other agencies, other 
than their own, and it is very few people who are those fusion 
agents, if you will, who bring the information together.
    And I think it is important, and as you look at this 
further, perhaps you have some recommendations on how the 
agencies can be putting information into their own systems that 
are written to share.
    The FBI is, for example, making some very good progress in 
their new intelligence guidelines. They have taken the position 
that the FBI should write to share, not write to classify; that 
the information should be considered a share by rule and 
withhold by exception, which is a complete flipping of anything 
the FBI has done before, let alone any of the other agencies.
    And the CIA and intelligence community is, similarly, 
looking hard at those issues, but a culture of classification 
is pretty deep there.
    We are recommending a culture of authorization, if you 
will, which moves from the ownership and control and 
classification and the withholding of information, as Jim 
described it, for different institutional reasons, to one of 
writing to share and withholding of critical elements of 
information.
    But those centers, TTIC or presumably the one that you 
recommended, have a very important role to play. It does not 
bother me that there might be some redundancy, that there might 
be more than one of those fusion centers, because not everybody 
is going to see everything.
    But I also think we cannot fall into thinking that those 
are the only places where the dots can be connected. And 
connecting them with local people who are worrying about 
Chicago or their bridge, as Jim was talking about, is also very 
important.
    Mr. Gilmore. Congressman Weldon, I would say this. I liked 
the description that Mr. Woolsey gave of the role of the CIA 
and the FBI. Earlier, I was actually, frankly, shocked to hear 
that the CIA stole secrets. I did not think we read each 
other's mail.
    But with respect to the description, I think that is right, 
but I think that today's challenges require multidimensional 
approaches. It requires a recognition that more functions than 
that have to be done. And the challenge, I think, of leadership 
and indeed statesmanship is to provide clear direction from the 
Congress, that there is a recognition that there are more 
functions than that, in order to meet the challenge that we are 
facing today and we will face for other challenges and threats 
in the future.
    So he or she will have to meet that challenge, and I think 
that the direction of the Congress from a committee like this 
one will help a great deal.
    Chairman Cox. The gentleman's time has expired.
    The gentlelady from New York, Ms. Lowey, is recognized for 
eight minutes.
    Mrs. Lowey. Thank you, Mr. Chairman. And I want to thank 
you and the ranking member for holding these series of 
meetings.
    And I want to thank all of our expert witnesses today.
    I must say, as a congresswoman, or if I were one of the 
laymen sitting in the audience--though there may be many people 
in the audience who have great expertise--I would take a deep 
breath and say, ``Well, it is a good thing we have a lot of 
luck,'' that it is almost three years after 9/11, and with all 
the wisdom and the commissions and the foundations and the 
committees who are focusing on this, I just wonder if we will 
be sitting here three years from now debating the same 
concerns.
    And I say that seriously, because you all present very 
serious issues. And I did not even mention our Intelligence 
Committee and those such as Ms. Harman and Mr. Goss, who are 
putting together and have put together very serious proposals.
    And I also found it interesting, Ms. Baird, your 
presentation, as the others, was so very informative. And yet, 
when you began your remarks about a half hour ago, you said you 
are taking a contrarian position. Frankly, it sounds to me like 
common sense, what you are proposing.
    And so, as a member of Congress, I just wonder, and my 
colleagues have been asking the same question--I am not quite 
sure who to address it--how do we move this along?
    You are talking about a presidential directive. We see GAO 
reports that say 35 percent of local first responders do not 
feel that there is adequate connections to the federal 
government information. And we wonder, well, how do we improve 
on that quickly and not take another year, another two?
    And I say that not to be impatient, but we have had such 
wisdom, we have had such good testimony, we have had so many 
good reports, you just wonder how you move the process.
    And then I worry, and I think it was on March 25, 2004, the 
director of the FBI's terrorist screening center, Donna 
Bucella, told us that the complete screening and watch list 
database is not available. We know that. She said it would be 
fully operational at the end of the year. I will not hold my 
breath until that happens because of all the limits you mention 
on that.
    So I really am asking a general question again. My 
colleague, Mr. Dicks, asked so many good questions. My 
colleague, Mr. Weldon, mentioned that he was focused on this 
issue in, what, was in 1997 or 1998?
    I happen to come from New York. We lost hundreds of 
constituents in the World Trade Center. We are very aware of 
the issue of interoperability. In fact, I think it was about 
six months ago, maybe a year ago, Mr. Chairman, the person who 
is responsible for sending federal standards out in an RFP said 
perhaps it would go out in six months. I should ask you if it 
has gone out. I do not think anyone I know has received it.
    So many of our local communities, being so close to New 
York, are buying their own equipment. And I am trying to put in 
place a bill which I have introduced that would reimburse those 
local communities, among other things, have a special area just 
focused on interoperability in the Department of Homeland 
Security, so we can work with these communities, who, frankly, 
are doing their own things because they have not got any 
directive from the federal government.
    So I am not sure who I want to address this sense of 
frustration to all of you, but to speak for the average 
citizen, who, frankly, in my community, is in a state of, shall 
we say modestly, real concern, real anxiety, worried about the 
future, should we just say that this is the greatest country in 
the world and we have had some good things happen and we will 
just muddle through, and with a lot of luck, maybe we will not 
have a 9/11 for another three years?
    Maybe Mr. Woolsey. If you see that there is something 
integral to the departments of FBI and CIA that you think is an 
anathema to really having one list, how do we get past that?
    One other point, and then I really want to hear from you.
    When I am on an airplane, I know that someone is having to 
check with all these lists, and someone falling through the 
cracks is a real probability. And this is another area. I know 
that people who work at these airports, whether it is 
McDonald's, whether they are food handlers, still are not going 
through security, as I am.
    The government move so slowly, and that is the nature of 
the beast. How do we get just that one thing done? Perhaps it 
is The Markle Foundation's recommendations or the Gilmore 
commission. How do we ensure that if I am getting on an 
airplane or a constituent is getting on an airplane that, even 
though there may be eight lists or 10 lists or 12 lists, we are 
going to catch that guy and stop that guy if you do not feel 
realistically they are going to be able to merge the lists?
    Mr. Woolsey. Congresswoman, I do not think that cooperation 
is--I would not go so far as to say it is an anathema to the 
bureau or the agency. It is that, for important parts of what 
they have done in the past, keeping things very close to the 
vest has worked for them.
    And as long as what one is doing is prosecuting individual 
crimes of fraud or kidnapping or whatever for the FBI, and one 
is recruiting specific KGB officers, the sort of behavior I 
described is perfectly reasonable behavior.
    The problem is that we are in a new world.
    Mrs. Lowey. Right.
    Mr. Woolsey. And it is a world in which one is going to 
have to be creative about the way one extracts information that 
has been stolen either by the CIA overseas or given from an 
intelligence liaison service, a foreign service, or obtained by 
my hypothetical patrolman on the beat from a grocer on the 
corner.
    One is going to have to find out a way to get that out and 
have people be able to have access to it in a way that the 
governor and Ms. Baird have suggested.
    Some of the things we do and have done in the historic 
intelligence communities are, for example, called terror lines. 
In a classified document, we will have something--not a lot, 
often--but something about the source of intelligence, because 
it is almost always the case that you you can do a better job 
of making a judgment about intelligence the more you know about 
the source.
    That is why the president's daily brief is so important. We 
are completely candid about sources in the president's daily 
brief, whereas the material that goes out to hundreds or, in 
this government, thousands of people will be very vague, often, 
about sources.
    If you have nothing about a source, sometimes you can get 
information out and someone, let's say, with a secret level 
security clearance in the police office, NYPD, may not be able 
to make as good a judgment about how valid that is. But if he 
is told, ``We have a serious threat of such and such a type in 
New York over the course of the next two weeks,'' and he does 
not know anything about the source because it has just come to 
him below a tear line, still he can do a lot if the information 
is useful to him and it is something that he can act on.
    That is the kind of thing, I take it, that we are talking 
about trying to do with the networks that The Markle Foundation 
has talked about and, in a slightly different context, the 
Gilmore commission has talked about.
    But people who are consumers of intelligence are 
perpetually demanding to know more and more about sources and 
methods. It is just very frustrating to be told, ``Listen, all 
I can tell you is you got a serious risk to the bridges of New 
York over the course of the next two weeks.'' Well, why do you 
say that? Why should I believe that? I mean, if you are a 
normal person, you ask that question. And the answer for large 
numbers of people is going to have to be, ``I am sorry. We 
cannot go into that.''
    So if you can set up a system where the substance is 
largely, almost entirely--best of all, entirely--extracted from 
sources and methods and separated from it, I think a lot of 
this can be done in a useful and interesting way.
    But it will be a constant struggle, not only with people in 
the NYPD, but in the Department of State and elsewhere. People 
always want to know more about source and methods. And for 
widely disseminated information, they are just going to have to 
be told ``sorry.''
    Ms. Baird. Yes, I share the frustration of your 
constituents, wondering why it is we cannot do this better.
    The answer, though, is not to have one commandant telling 
every agency what to do and making them march to the same drum. 
The diversity of America is its great strength.
    But the answer is having a common vision. And we have 
recommended that common vision be set in a presidential 
directive. And we have also said though that, that common 
vision could be set by DHS.
    With an inter-agency and a public/private process, this 
committee could play a real role if it wanted to give everyone 
a vision to march to that is a common vision. So that when we 
invest in that local communication it not only is interoperable 
between police and firemen, but it in fact is interoperable 
with a larger system, because we cannot predict who they will 
need to talk to tomorrow--they may need someone at the CDC, 
they may need someone who is an expert on bioterrorism at a 
university.
    The other aspect of that is that, by having some kind of 
common vision, we can use a sort tear-line system, a system of 
stripping out sources and methods, but, nevertheless, give 
people common rating tools.
    So instead of asking the name of a source in order to find 
out if the source is very good, you can have an eBay-like or an 
Amazon-like rating button on the information, where the 
originator of it says, ``This is urgent,'' ``This is of high 
value,'' ``This is a reliable source.''
    And then everybody in the network can rate the rater. If he 
is not really good, if he puffs, you know, his own source, 
promotes his own sources, but nobody else has found the 
information useful, you could have a second button which says, 
you known, ``This guy is not to be trusted as someone who is 
putting the information from our government into the system.''
    So there are a lot of tools we can use that are used every 
day by your constituents in their own homes, in their own small 
businesses, not just big companies. And our government needs to 
get as smart as our people are and use those tools.
    Mr. Gilmore. Well, I will add something to that. I think 
that the danger at the local and state level is that 
information is gained because of the superior assets at the 
federal level, and the state police and the local police never 
know anything about it at all.
    The feds do not trust the states and locals. They are 
afraid to give them anything. There have, in fact, been some 
examples, as a matter of fact, where unfortunate governors have 
made public statements they should not have made based on 
federal information, which then makes the feds even more 
suspicious.
    The answer, it seem to me, is the setting up of an 
appropriate structure to share information, to create a culture 
that places trust, whether you have a hierarchal ability to 
deal with that, which, frankly, I prefer, because I think that 
it gains more accountability, or a decentralized type of 
approach, which I think would have to be scrutinized to make 
sure there is appropriate accountability. No matter what it is, 
you have to have some willingness to actually do it.
    And the problem here is that I think you have to go to a 
system that calls a clear idea of what you are doing, and then 
training.
    Remember that in, I think, yesterday's paper, there was an 
example that someone in American Online has been accused of 
getting access to information then selling that out. Well, they 
have been charged with a crime, a crime, under the statute.
    And, indeed, if someone is going to give information to a 
state or local official properly cleared, who has a need to 
know, and then they turn around and misuse the information or 
spill it out, you would do with them what you would do with 
Hanssen or some with other person, the FBI or CIA, you 
prosecute them.
    And you train people to understand that that is going to be 
the rules of the game. And I think that opens the key to, at 
that point, actually diffuse information so you take advantage 
of all of the aspects of information and intelligence-sharing 
in this society.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I hope we can gather next year.
    Chairman Cox. I thank the gentlelady.
    I thank the witnesses for their answers.
    The time has expired.
    The gentleman from Nevada is recognized for, how many 
minutes? Eight minutes.
    Mr. Gibbons. Thank you, Mr. Chairman.
    And to each of our witnesses today, thank you for your 
appearance here today. Your testimony has been enlightening. It 
has been valuable to us, in terms of our discussion and our 
effort to make heads and tails of what we have before us. So we 
appreciate that greatly.
    Chairman Cox. I wonder if the gentleman would yield just 
for a brief announcement.
    The committee has scheduled a briefing that begins at 1 
o'clock. The witnesses have asked us that they be excused by 
12:45. We have three members who want to ask questions. And 
that should just about work if everybody, including our 
witnesses, is compact in their answers and questions.
    Thank you.
    Mr. Gibbons. Well, Mr. Chairman, in that vein, I will try 
to ask just three very simple, direct questions, one to each of 
the witnesses so perhaps we will not have to belabor this 
process much longer, especially for them. They have been here 
very patiently.
    That said, perhaps I should direct my first question to 
Director Woolsey.
    I mean, listening to your comments about the reorganization 
proposals of the CIA and whether this is going to end up in a 
structural change with a new head of the national director of 
intelligence or perhaps just a simple, new and improved DCI, 
which ever that process is, that individual will end up 
inheriting what I see as a vast array of intelligence fusion 
centers and analytical centers, feeding information to and 
receiving information from various organizations.
    And my question would be, is it better to have the hub-and-
spoke system, where we have something like the TTIC today at 
the hub, or should we have a centralized single agency 
responsible for sharing information to first responders and 
other agencies? What is your suggestion?
    Mr. Woolsey. Congressman, the dilemma about intelligence is 
that, for some things, you want centralization and, other 
things, you want competition.
    The reason we have a U-2 and satellites and a lot of other 
things is because different parts of the CIA and the Defense 
Department historically, in a sense, competed against one 
another to come up with new approaches toward collection. And 
the richness of the intelligence where it is available to us 
is, in part, because things were not centrally directed.
    Also, in analysis, it is a good idea to have more than one 
set of eyes on a problem and to have people come at things from 
a somewhat different perspective. The Bureau of Intelligence 
and Research at the State Department, as I mentioned before, 
sometimes has a different point of view than other parts of the 
intelligence community. And they have done a good job of 
presenting that view. Sometimes they are right, sometimes they 
are wrong. But DCIs and presidents and secretaries of state are 
well served by having that disagreement.
    What you do not want competition in is organizing things, 
pulling them together, making sure the right people are 
informed, making sure the judgments are made properly about 
need-to-know access and having sort of one system for pulling 
things together instead of lots.
    Mr. Gibbons. So, to analyze it quickly, because I want to 
the other three questions here, and I hate to interrupt you, 
and I understand basically.
    What you are saying is the hub-and-spoke system that we 
have today, with the multiple series of fusion centers and 
intelligence and analytic centers feeding into a central 
organization, is probably the most efficient way to deal with 
intelligence?
    Mr. Woolsey. I am relaxed about multiple sources of 
intelligence and multiple folks doing analysis. I am not real 
happy about the idea of having multiple fusion centers.
    Mr. Gibbons. Okay.
    Let me jump over to Ms. Baird, because the Markle report or 
the Markle Foundation's report has urged the creation of 
system-wide homeland analysis exchange--SHARE, I think that is 
what you call it--available from commercial vendors of 
software.
    My question is, knowing of course, what we have just seen 
with AOL, the insider that sold inside information, knowing 
Hanssen was an insider in the FBI who was in charge of 
counterintelligence, knowing people like Aldrich Ames, et 
cetera, in the CIA were insiders, and the complexity and the 
size and the importance of the information that would be lumped 
into a common system sharing this information, my concern is 
the security with this. And you heard Mr. Weldon talk at length 
about the security of our cyber systems.
    How do you assure us that a proposal of this nature, with 
the value and the sensitivity of the information that is in 
there, would be secure?
    Ms. Baird. Well, certainly, I would agree that the insider 
is the biggest risk, in fact.
    The system that we proposed does allow people to withhold 
certain most critical information from a system like this and 
only let it be known that they have something. So a source of 
information that you do not want somebody to be able to tap 
into, that kind of thing, can be withheld.
    The potential, though, for use of aggressive audit 
processes, aggressive tracking of whether it is only authorized 
people who are using information, the inability to pass 
information--that can be done with technology to prohibit 
others from passing it along or prohibit if from being printed 
out, these kinds of things can go a long way, with the kind of 
security and encryption technology that is used in the private 
sector can--and some, well, by government, the Defense 
Department and others--can go a long way to providing security.
    But I would say that it is a combination of making sure you 
get there fast, if somebody is misusing information, and of 
keeping certain kinds of information out of the system.
    But we do believe that the overall balance favors this kind 
of management of shared information and that we can be very, 
very good at protecting ourselves from people trying to abuse 
the system and not protect ourselves from terrorists.
    Mr. Gibbons. Mr. Gilmore, finally, let me say that one of 
the recommendations of the earlier commission that you served 
on recommended that we develop domestic intelligence agencies, 
something like MI-5. And I just want to get your opinion.
    Is it sufficient to have the FBI and the Department of 
Homeland Security coordinating closely to protect the homeland 
security, as we do today? Or do we really need an MI-5?
    Because those of us like myself are vastly concerned about 
the implications of having a domestic government organization 
spying on Americans.
    So I want to know, you know, your ideas. Should we merge or 
is there a need to merge these functions into a single agency?
    Mr. Gilmore. We argued over this for virtually a year, in 
year four of our five-year commission, in the year 2002. And, 
again, there was a certain line of thinking, led by Jerry 
Bremer, of the commission that basically said, ``Look, security 
is everything here. We have to go to something that is not a 
law enforcement model.'' And that actually ended up prevailing 
as our recommendation to the Congress.
    Again, my view and that of one or two others on the 
commission was that the FBI is the better approach. They are 
properly deployed. They, by virtue of their activity with law 
enforcement, they understand what the constitution is, what the 
law is, and the fact that it applies within the domestic 
homeland. So that is the essence of the discussion that we had.
    I think that our commission has devoted continuously, and 
up until the final report, a serious concern about the risk to 
civil freedoms and the country as a result of an obsessive 
overreaction, a hysterical reaction, at this moment in time in 
our history. We are concerned about it, and that is why I think 
that the bureau should be forced to do it, should be required 
to do it, and should be carefully overseen by this committee 
and other committees and that be demanded in that way.
    But what is the thinking behind MI-5? The thinking was that 
a law enforcement organization is not suitable, that an 
intelligent organization is suitable. And since we do not have 
one really domestically, the FBI is fundamentally and 
culturally a law enforcement organization, that we should go to 
an MI-5.
    I believe you will find that the discussions of our 
commission for that year should properly advise the Congress of 
the different elements so you make a decision as to the 
appropriate approach. I hope that is responsive.
    Mr. Gibbons. Very responsive. Thank you very much.
    And to each of you, thank you again.
    Mr. Chairman, thank you.
    Chairman Cox. Thank you, gentlemen.
    Mr. Langevin is recognized for five minutes.
    Mr. Langevin. Thank you, Mr. Chairman and Ranking Member. I 
want to thank you for organizing this hearing.
    And I want to thank our witnesses for being here today. 
Your testimony has been extraordinarily helpful.
    I probably want to pursue, I guess, a little bit more, in 
the line of questioning that Mr. Gibbons had begun. And we have 
talked really about, you know, three different things here: the 
director of national intelligence, whether it is DCI or DNI; we 
have also spoken about getting greater information-sharing 
cooperation among the various intelligence agencies; and then 
we have talked about the communication and information-sharing 
with our first responders.
    What I would like to do, if I could, just--we do not have 
time to get to probably all of those--starting with a DNI. We 
have gotten kind of a broad outline, but more of a, I guess, it 
is more meat on the bones.
    Can you tell me, how do you envision this working, if we 
were to have a DCI, DNI, so that it is not just ceremonial? You 
described it, Mr. Woolsey, as, you know, honorary chairman of 
the board, as it exists right now. How do we not replicate 
that? Does this person have budgetary authority? Do the various 
heads of the intelligence agencies answer to the DCI?
    And on that, sir, I would like some more information on 
that point.
    But also on getting the various intelligence agencies to 
work more closely together. Mr. Gilmore, you hit it on the 
head, that this is largely a cultural problem, the hurdle that 
we need to overcome.
    And coming from a public administration background, I know 
how difficult that way is. You either have to replace the 
people that are there, which I am not advocating at all, or you 
have to somehow get the people to buy into seeing the value in 
working together, in changing the culture themselves, being a 
part of that change.
    Is it time for an MI-5 model? Some of our Special Forces, 
in a sense, work that way. They come from, you know, Army, Air 
Force, Marines, but the insignias are basically stripped off 
from where they come from, the various branches of the 
military, and they work for one purpose.
    So why not that type of a model? We have obviously the CIA, 
we have the intelligence branch within the FBI, we have air 
force intelligence, army intelligence, naval intelligence.
    Should we not have these individuals as part of one 
intelligence branch, maybe working in different sectors, but 
budgetary authority and all that is essentially located in one 
agency?
    So, if you could try to handle those, I would appreciate 
it.
    Mr. Woolsey. Just a few words on the DCI-DNI one. I 
referred earlier to Congresswoman Harman's bill. The one aspect 
of it I did not favor was that it had the undersecretary of 
defense for intelligence being the deputy to the overall head 
of the community. And that would, I think, give the Defense 
Department and that individual too much power, because he then 
has two bosses, in a sense. And if you have two bosses, I am 
not sure that you have one at all.
    I was once nominally the boss of Hyman G. Rickover when I 
was undersecretary of the Navy. And one important thing about 
Admiral Rickover was that he also had a position in the 
Department of Energy and he also had a lot of support on the 
Hill, so he really did not have a boss. And I do not think that 
the notion of having two bosses for the number-two person in 
this structure is a good idea.
    But other than that, I like her bill because using terms 
and words of correlative authority and associate appointments 
and the like, what she tries to do essentially is force a 
partnership between the secretary of defense and the new DNI or 
DCI, the overall head of the community, on such matters as 
money and personnel. And those are the two hearts of the 
matter.
    The DCI today cannot hire and fire the head of the NSA, and 
he cannot move money from NSA into the NRO or vice versa. He 
can ask, but that is it. This gives him or her more authority 
in that direction than he or she has now, but it does not make 
him the overall head of the community, to the exclusion of the 
interests of the secretary of defense.
    I think that is about as well as one can do under the 
current interlocking responsibilities that much of the 
intelligence community has for working directly for combatant 
commanders, as well as working on more national and civilian 
objectives.
    And on the other aspects of your question, I will let my 
colleagues answer.
    Mr. Gilmore. Congressman, I think I would concur that an 
overall director of central intelligence or a director of 
national intelligence is a good idea, to begin to bring these 
things together.
    You can certainly have a much more formalized ability to 
work with the defense establishment coming into that kind of a 
structure. I believe he should have budgetary authority, and I 
think he should have some personnel authority.
    I think that this dual-boss problem is a central one that 
the Congress is going to have to wrestle with. Maybe a 
construct that tries to draw a distinction between intelligence 
operations, such as the one I was involved with when I was in 
the service, in support of military organizations engaged in 
military activities or preparations for that; more tactical 
intelligence is one thing and more strategic intelligence is 
something else. And information acquired there could be dealt 
with on a more consultive basis under this kind of structure.
    I do think you have to deal with the issue of, if somebody 
does not work for you, you do not control them. And that is a 
reality. When I was governor, I sought a new policy of 
accountability for public colleges and sought to appoint people 
to college boards who would bring actual oversight and 
accountability to public college education. But the law in 
Virginia is you appoint them and they are gone; you cannot 
recall them.
    And as a result, I would say that that was not a successful 
policy implementation, because unless you can actually bring 
some accountability of the person that is working for you back 
to the table again, you cannot really expect it to be 
successful.
    These are the challenges that I think lay ahead of this 
committee.
    Mr. Langevin. Thank you.
    Chairman Cox. Thank the gentleman.
    The chairman of the Subcommittee on Emergency Preparedness 
and Response, gentleman from Arizona, Mr. Shadegg, is 
recognized for five minutes, or eight minutes, or however many 
minutes you can get out of our witnesses who are trying to 
leave.
    Mr. Shadegg. I thank you, and I note that we are already 
passed your deadline, so I will try to be brief.
    Let me begin with an apology to our witnesses. I would like 
to have been here throughout this hearing, but due to 
conflicts, including a mark-up downstairs, I have not been able 
to be here and hear your answers to all the questions, though I 
had staff here. And I believe you have been very, very helpful.
    Let me try to ask just two fairly direct questions, and we 
could all conclude this.
    First, Director Woolsey, if I am not mistaken, at the end 
of an answer to a question just a few moments ago, you said 
something to the effect that you are not fond of a great number 
of fusion centers.
    The state of Arizona, a part of which I represent, has 
created a fusion center, or is creating a fusion center, their 
state director of homeland security just advised me yesterday 
that California has expressed an interest in participating in 
that fusion center and that, indeed, our director would like to 
get all of the border states, those states that border Mexico, 
to participate in that fusion center.
    I would like to give you an opportunity to give me a little 
more guidance on your concern about fusion centers.
    Mr. Woolsey. Congressman, it is fairly straightforward. I 
think as long as there is a fusion center of fusion centers, we 
are okay, as the Defense Department talks about the concept of 
a system of systems.
    What I was trying to suggest is that we do not want 
incompatible software, incompatible nomenclature, lists that 
have different standards for things going on them and so forth. 
This all needs to get pulled together someplace.
    And the parts of intelligence that I think, as I said, 
ought to be competitive and come from different perspectives. 
People ought to have the ability to come up with new ways of 
collecting intelligence, even if they are different from what 
exists and not coordinated. They can coordinate them later. And 
they ought to have the ability to have disagreements and 
different perspectives on analysis.
    But in terms of pulling the information together so 
everybody is kind of working from a common background, if you 
have a bunch of different fusion centers and someone has 
architected the system so that they all work together, then 
that is fine.
    Mr. Shadegg. The point is very clear. I appreciate it.
    My second question goes to you, Governor Gilmore. Let me 
give you a little background. In a prior life, I worked for the 
Arizona Attorney General's Office. I was the second-ranking 
lawyer under the attorney general himself. I had responsibility 
for a number of divisions of the office.
    In a state that had 13 county attorneys, and our job was to 
try to coordinate with those country attorneys and have them 
all working together. When you work in a job like that, you 
learn all the internecine fights that go on between various law 
enforcement agencies. The chiefs of police do not like the 
sheriffs. The sheriffs do not like the chiefs of police. And 
some county attorneys are angry at the AG; some are happy with 
him. It is a difficult circumstance to be in, but it is one we 
struggle through all the time.
    Ms. Baird talked about and emphasized the importance of 
architecture, hardware and software, for sharing information. 
And I think that is extremely important.
    But it seems to me what we face in this committee and what 
the department faces is a human problem, a problem of getting 
all these disparate agencies that may have motivations, indeed 
in the past have had intense motivations, not to cooperate to, 
in fact, cooperate.
    And I guess my question to you is, how can we create 
incentives for each of them to be sharing information? And I 
think this is a topic on which you have a great deal of 
knowledge, and I appreciate your thoughts on what this 
committee can do to create those kinds of incentives and aid 
the department.
    Mr. Gilmore. Boy, that is a complicated question. And I 
was--
    Mr. Shadegg. You got the rest of the day, so--
    Mr. Gilmore. Oh, okay.
    [Laughter.]
    We will be a while, I think.
    And, as you know, I was attorney general of Virginia, and 
it is a challenge to get all of the disparate people trying to 
work together.
    And we have focused a lot of attention, again, upon the 
distinction between federal authority and state and local 
authority and the divides that are created there.
    I was amused by your previous question. I am curious to 
know whether when they create that western fusion center at the 
state level whether they are going to allow the feds to 
participate or not.
    Mr. Shadegg. They intend to.
    Mr. Gilmore. I would be curious to know.
    But I think that the answer is that you have to have a 
clear plan. I think you have to have a clear structure and an 
understanding of what are the expectations of the people 
involved, so that, at a local basis, the sheriffs and the 
police chiefs need to understand who they are supposed to 
report to, who is in charge.
    And if that is to the local prosecutor, that is fine. If it 
is to a state police representative at the emergency operation 
center in Phoenix or someplace like that, then that is fine. 
But there has to be a clear understanding of what it is.
    And then there has to be a culture of liberality, where 
people can know that they can have access to this information, 
and the information has to go up and down the chain.
    And then you have to be sure that it works together between 
all of the levels of government: federal, state and local.
    If you put structures into place and a clear game plan and 
a clear expression of expectations, then I think that the 
personal feuds or turf battles can diminish. Because if 
somebody sees a clear set of instructions and game plan and 
rules and they do not play by them and something bad happens, 
there is going to be hell to pay by that person who is not 
participating. And I think that that is some incentive for them 
not to do that.
    How can this committee help? It is a challenge, because 
this committee does not run the states and the locals. There 
has to be, I think, a vision. And that is why I am so pleased 
to be here today and participating with this committee, because 
I think that this committee has the opportunity to create that 
type of visionary approach. And that, I believe, is the 
opportunity that is ahead of you.
    Mr. Shadegg. Thank you very much. I thank you for your 
time, and yield back the balance of my time.
    Chairman Cox. Thank you very much.
    It is seven minutes beyond the time that I promised that 
you could leave. And I understand, in particular, Ms. Baird, 
that you are racing to the airport. So each of you, if you need 
to leave at this moment, is excused.
    We have one more member who wishes to ask questions.
    So I want to hold firm to the committee's promise that the 
witnesses are excused, if you need to leave. If you can remain, 
you are certainly invited and welcome to do so.
    And, in either case, the gentlelady will put her questions, 
and I would appreciate your willingness to respond to them, in 
writing after the hearing.
    Ms. Baird. Thank you. I would just clarify, I have a 2 
o'clock plane, so that is my constraint. And I apologize for 
that and would be happy to meet with anyone individually or if 
I can give--
    Ms. Jackson-Lee. Mr. Chairman, if you would yield, I would 
like to proceed with the two gentlemen and put my questions on 
the record. And if someone can answer it very quickly, I would 
be delighted.
    Chairman Cox. All right, Ms. Baird, I think if you need to 
catch a plane, you are going to make us all nervous if you do 
not do so.
    Ms. Baird. Thank you kindly for having me here. Thank you.
    Mr. Woolsey. Mr. Chairman, if my old friend, the staff 
director, could call my office and tell them to put off my 
conference call until 1:15, I would appreciate it. And then I 
am fine here for the next--
    Chairman Cox. All right. And, of course, the entire 
committee is due in the Capitol no later than 1 o'clock. We 
have a hard 1 o'clock start and a hard 2 o'clock stop. So we 
only have two minutes, at most.
    The gentlelady from Texas is recognized.
    Ms. Jackson-Lee. Let me thank the witnesses for their 
accommodation on such an important topic.
    Let me just simply say this about intelligence: There 
cannot be a more important part of the infrastructure.
    Mr. Gilmore, thank you, Governor, for you great works.
    And, Ambassador, Director Woolsey, thank you for your good 
works.
    Let me just ask this very important question. We had a big 
debate on whether or not you need to respond to the CIA when 
they ask for full funding of counterterrorism.
    Would you suggest that there is a crack in the system, when 
we cannot give a full funding for counterrorism as one of our 
most important elements of our responsibilities?
    And since I have a short period of time, would you also 
just give me the effectiveness of TTIC and how we might make it 
more effective?
    I think my colleague, Mr. Turner, said, the dual 
responsibilities, or the dueling responsibilities. Can you give 
us, if you would, that idea of how that can become more 
effective?
    And I guess lawyers have more than one question when they 
say they have two.
    I would only ask you, as to whether or not in the sense of 
where we are today, do we see a function or a viewpoint of an 
effective interrelated intelligence system? And I know that is 
a larger question, but maybe a brief answer would be helpful.
    So the counterintelligence full-funding question.
    Mr. Woolsey. Counterterrorism or counterintelligence?
    Ms. Jackson-Lee. Counterterrorism full-funding for the CIA 
that would help them in countering terrorism.
    Mr. Woolsey. Well, on those facts, not knowing more about 
it, and having suffered somewhat from rather substantial budget 
cuts, both in the executive branch and the Congress, when I was 
DCI back in the early 1990s, it is hard for me to imagine, 
under the current circumstances, doing anything other than 
giving the agency in the other parts of the government anything 
they reasonably need and require in the counterterorism area.
    The CIA's counterterrorism work overseas, as I said in my 
opening statement, is something that may not be at the heart of 
our counterterrorism work in terms of dealing with threats here 
in the United States. Because, as we saw on 9/11, much of work, 
took place here and in Germany, two places where we do not 
really spy.
    But, on the facts as you state them, Congresswoman, I would 
really be rather surprised at anything other than a full 
funding of what they reasonably believe is necessary would be 
the course that people would take.
    Mr. Gilmore. Sure. I--
    Ms. Jackson-Lee. Welcome.
    Mr. Gilmore. Thank you, Congresswoman.
    I sat with the Congresslady recently at the Ronald Reagan 
funeral.
    The issue of counterterrorism is now quite central, because 
the issue is going to be, how can we prevent? And there is no 
way of preventing other than counterintelligence.
    And, as for counterterrorism, to the extent that that is 
different, I believe that that means a response to that 
intelligence and information by the appropriate agencies.
    No, I do not believe that Congress is going to give a blank 
check for anything. I think you are going to look and see what 
the money is requested for. But I think it is a national 
priority, without any question to that.
    And, on the TTIC, I do not know how it is working. We 
recommended that it be a stand-alone agency so that all 
customers could feel like they could come together in it. And 
we believe that it should have significant participation by 
state and local people as well.
    But, clearly, that was a major step forward, to create at 
least a fusion center that could become a model and a hub, if 
you will, for the hub-and-spoke system on intelligence fusion.
    Mr. Woolsey. I would only add, on TTIC, Congresswoman, it 
does seem to me that what I had said earlier about setting up a 
separate office to head the intelligence community, the 
director of national intelligence or central intelligence, 
separate from the CIA as an agency, has positive implications 
for TTIC.
    I think it is more understandable for other parts of the 
community to have something reporting to the overall head of 
the community who is not, at the same time, the head of the 
CIA, and would be, in many ways, a stand-alone agency in that 
capacity more than it is if it reports to the DCI under its 
current structure, where he is also the head of the Central 
Intelligence Agency.
    Chairman Cox. I thank the gentlelady for her outstanding 
questions, the witnesses for their outstanding answers.
    And I ask that we keep the hearing record open for 30 days 
so that additional questions that members may have may be 
submitted to the witnesses in writing.
    Mr. Gilmore. Mr. Chairman, I may wish to submit a statement 
as well, a written statement.
    Chairman Cox. And, without objection, that will be included 
in the record as well.
    You have been--
    Ms. Jackson-Lee. Mr. Chairman, yield, I am sorry. I did not 
hear your opening. Members statements may be allowed too?
    Chairman Cox. Oh, yes, by all means.
    Ms. Jackson-Lee. Thank you very much.

       Prepared Statement of the Honorable Sheila Jackson-Lee, a 
                             Representative

    I want to thank Chairman Cox and Ranking Member Turner for putting 
together this vital hearing on information hearing issues. As we learn 
more about the events the preceded September 11th it has become 
apparent that if information sharing between our intelligence agencies 
had been more in tune with each other then we may very well would have 
been able to prevent the devastating terrorist attacks of that day. To 
this day information sharing in our nation is not where it should be, 
the American people need to know that our nation's intelligence 
agencies are working in sync; unfortunately it still seems that these 
agencies are often working against each other. This debate is even more 
timely in my mind because of the fact that the House just took up and 
passed the Intelligence Authorization Act of 2005, H.R. 4548. I am 
still of the mind, that our intelligence agencies, one of the 
cornerstones of Homeland Security is not being properly funded. 
However, proper information sharing between and also within 
intelligence agencies is the only way our nation will be secure, no 
matter what the budget is.
    I am shocked and even appalled that almost three years after 
September 11th there are still not effective avenues of communication 
in place. The GAG has found that officials from states, cities and 
localities do not consider the current process of sharing information 
to protect the homeland to be effective. Indeed, a major GAG survey 
noted that only 35% of these respondents reported that sharing 
information with the federal government was ``effective'' or ``very 
effective''. These numbers are very disturbing, especially when we 
consider that they come from people at the local level, those who 
understand their security risks the best and those who will be most 
directly affected by a terrorist attack in their community.
    In addition to a lack of proper communication is the fact that our 
intelligence agencies are not properly divided with clear distinctions 
as to roles and responsibilities. This confusion has often led to the 
fact that certain incidents and cases are being looked by multiple 
agencies while others too often fall through the cracks. A Markle 
Foundation Task Force Report uncovered major weaknesses in how the 
Executive Branch defines the respective roles, responsibilities, and 
authorities of the Federal agencies involved in assessing and 
disseminating homeland security information. The report concludes that 
the roles of the TSC, TTIC, the Director of Central Intelligence's 
Counterterrorist Center (CTC), the Department of Homeland Security, the 
FBI and its JTTFs, and the Defense Department's Northern Command are 
not clearly defined. Inevitably, this will sustain continued turf 
battles among agencies, gaps in information sharing and analysis, and 
limit attempts to protect civil liberties.
    Lack of proper communication and undefined roles are only two of 
the many problems that face our intelligence agencies in dealing with 
information sharing. Our national security will not be ensured until 
all agencies can properly share and disseminate information. It is 
unfortunate to me that in the near three years since September 11th, 
that more substantive steps to cure information sharing gap have not 
been taken. We needed proper information sharing a long time ago and we 
desperately need it now, time will only tell if we get it in the 
future.

    Chairman Cox. The gentlewoman's statement will be included 
in the record.
    I want to thank, again, our three witnesses, although Ms. 
Baird had to leave early. And we look forward to continuing to 
work with you on these vitally important questions.
    There being no further business, the chair, again, thanks 
the members who are here, the staff who worked on preparing 
this hearing.
    Without objection, the committee stands adjourned.
    [Whereupon, at 1 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                        Questions and Responses

Reponses from Zoe Baird to Questions for the Record from the Honorable 
                           Sheila Jackson-Lee

    1. If the events leading up to September 11th were to happen today, 
how would the new information sharing capabilities be able to prevent 
the terrorist attacks? Specifically in relation the information about 
suspicious foreign nationals who were taking flight lessons, that was 
not properly shared between intelligence agencies.

    ANSWER: The Markle Taskforce on National Security in the 
Information Age has suggested the creation of a distributed, 
decentralized network (SHARE or Systemwide Homeland Analysis and 
Resource Exchange Network) that would prevent the stove-piping of 
information such as the FBI Phoenix memo that indicated that suspicious 
foreign nationals might be training at U.S. flight schools in 
preparation for future terror activity against civil aviation targets.
    The SHARE Network is a decentralized, loosely coupled, secure and 
trusted network that sends information to and pulls information from 
all participants (with the suitable permissions) in the system. The 
SHARE Network allows for vertical and horizontal co-ordination and 
integration. Information would be able to flow not just up the chain of 
command, but also to the edges of the system.
    In addition, the information shared may not be the data itself, but 
pointers to the person who controls the data, such as the FBI local 
agent, or who is informed about a topic, or who has access to more 
classified information. This allows for an object-oriented and self-
organizing approach to the information. Participants are able to 
identify, contact, and engage their peers through robust directories 
and identity systems, and access useful and relevant information by 
using comprehensive querying and analysis tools.
    The SHARE Network would enable, facilitate, and at times, demand 
two-way communication. As such the SHARE Network would ensure that 
users never reach a ``dead end'' on the network, such as the FBI 
Phoenix memo. Individuals who contribute to the network, based upon a 
``write to share'' concept of operations, instead of the current `need 
to know' model, would also receive information and feedback from the 
network and other participants, ensuring that participants, who have 
the adequate permissions and authorizations, at the edge of the network 
remain engaged and motivated. As such the SHARE Network moves from a 
classification system to an authorization system.
    Participation in the SHARE Network can take many forms. Communities 
of practice--groups of participants in fields like aviation security--
would also collectively act in a network. These communities benefit 
greatly from increased connections to those with similar roles in 
different organizations or at other levels. In addition, the collective 
community may come together as ad hoc workgroups, mobilized for 
specific tasks or identified threats (such as the threat of terrorists 
using airplanes to attack). Participants are not distinguished by their 
relationship to a central gatekeeper, but by their relationship to one 
another and the need to share.
    In our SHARE Network, participants can, will, and should form 
unique and utilitarian relationships in order to best support their 
particular role in national security, whether in prevention, analysis, 
response, or protection. Such a peer-to-peer collaboration allows 
federal, state, and local participants to draw upon the collective 
expertise of the community. In an environment of such great risks, 
empowerment of local actors will lead to better prevention or response 
management. And this can a be done while protecting privacy and other 
civil liberties interests through anonymization of information, audit 
trails and other tools.
    Information--managed through information technology--is the key to 
enhancing security. Information-sharing itself is not the goal; rather, 
it is the means by which we can most effectively enhance security and 
protect privacy, by maximizing our ability to make sense of all 
available information.

    2. Explain to me regarding the current system in place how 
hypothetically an intelligence item discovered in Houston would find 
its way to the proper national intelligence officers in Washington in 
order to prevent a potential terrorist threat in Seattle?

    ANSWER: Answering this question correctly would require further 
details about what kind of intelligence item was discovered by whom and 
when. Yet, below, I provide an illustration of how our envisaged 
information sharing system (SHARE Network) could operate in this 
hypothetically case.
    Say a field agent at the Houston FBI office and a CIA operative in 
Kabul become aware of separate leads that if put together might point 
to a bio-warfare attack in Seattle. Under the current system, reports 
from these two agents are unlikely to have enough actionable 
information to be moved through the system. However, using the SHARE 
Network, these reports would be linked through similar key words such 
as ``virus'' and ``Seattle'' or other linking tools. Instead of being 
housed in classified files and filing cabinets at the CIA and FBI, 
these reports would be distributed electronically to people who should 
see them. They also would be posted and available to be pulled by 
network participants with a particular interest. An analyst at TTIC, 
for example, might see both reports, contact the CIA and FBI agents and 
others to discuss their reports, begin to connect the dots and define 
actionable objectives. The FBI, CIA, and TTIC players could form ``a 
virtual task force'' by reaching out to other relevant agencies and 
individuals, perhaps at Department of Homeland Security, the Centers 
for Disease Control or a local police department, for more information. 
And they could organize the work themselves, without losing time or 
going to their superiors in Washington for approval.
    Based upon their discussions, this group could now create 
actionable intelligence for their agencies: the CIA might elevate the 
information to a higher level, to the director, or perhaps up to the 
president. Through local contacts in Seattle, the FBI would have the 
option of notifying local police, so they could watch for activities 
related to a potential plot.

    3. In a joint press conference on May 26, 2004 with FBI Director 
Mueller, Attorney General Ashcroft informed the public that Al-Qa`ida 
is ``almost ready to attack the United States'' and that ``disturbing 
intelligence indicates Al-Qa`ida's specific intention to hit the United 
States hard.'' Attorney General Ashcroft added, ``credible intelligence 
from multiple sources indicates that Al-Qa`ida plans to attempt an 
attack on the United States in the next few months.'' However, on the 
very same day Department of Homeland Security (DHS) Secretary Ridge 
noted that the ``continuous stream'' of threat information is ``not 
unlike what we've seen for the past several years.'' He added that ``We 
do not need to raise the threat level to increase security. Right now, 
there's no need.'' My question is what kind of oversight can be done to 
make sure that the dissemination of contradictory information from even 
the highest levels of government can be prevented in the future, so 
that the American public is not left to make vital decisions based on 
completely conflicting information?

    ANSWER: A streamlined and reliable Threat Advisory System is a 
critical information tool to communicate with the public-at-large. Our 
Taskforce has so far mainly focused on information sharing within 
government and the intelligence community to prevent another terrorist 
attack, yet the same principles can be applied to an appropriate 
response system. As indicated above, we envisage the creation of ad hoc 
(or virtual) taskforces across agencies that would facilitate a co-
ordinated and united response, including threat information to the 
public at large.

Questions for the Record from the Honorable Sheila Jackson-Lee for the 
       Honorable R. James Woolsey, and the Honorable Jim Gilmore

    1. If the events leading up to September 11th were to happen today, 
how would the new information sharing capabilities be able to prevent 
the terrorist attacks? Specifically in relation the information about 
suspicious foreign nationals who were taking flight lessons, that was 
not properly shared between intelligence agencies. No response has been 
received.

    2. Explain to me regarding the current system in place how 
hypothetically an intelligence item discovered in Houston would find 
its way to the proper national intelligence officers in Washington in 
order to prevent a potential terrorist threat in Seattle? No response 
has been received.

    3. In a joint press conference on May 26, 2004 with FBI Director 
Mueller, Attorney General Ashcroft informed the public that Al-Qa`ida 
is ``almost ready to attack the United States'' and that ``disturbing 
intelligence indicates Al-Qa`ida's specific intention to hit the United 
States hard.'' Attorney General Ashcroft added, ``credible intelligence 
from multiple sources indicates that Al-Qa`ida plans to attempt an 
attack on the United States in the next few months.'' However, on the 
very same day Department of Homeland Security (DHS) Secretary Ridge 
noted that the ``continuous stream'' of threat information is ``not 
unlike what we've seen for the past several years.'' He added that ``We 
do not need to raise the threat level to increase security. Right now, 
there's no need.'' My question is what kind of oversight can be done to 
make sure that the dissemination of contradictory information from even 
the highest levels of government can be prevented in the future, so 
that the American public is not left to make vital decisions based on 
completely conflicting information? No response has been received.

                                 <all>

</pre></body></html>
